<html>
<title> - H.R. 2099, H.R. 3917 and H.R. 4874</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
                  H.R. 2099, H.R. 3917 and H.R. 4874

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              July 9, 2002

                               __________

                           Serial No. 107-136

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

80-550              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                Anibal Acevedo-Vila, Puerto Rico
Chris Cannon, Utah                   Hilda L. Solis, California
Bob Schaffer, Colorado               Betty McCollum, Minnesota
Jim Gibbons, Nevada
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 9, 2002.....................................     1

Statement of Members:
    Baird, Hon. Brian, a Representative in Congress from the 
      State of Washington........................................     4
        Prepared statement on H.R. 2099..........................     6
    Murtha, Hon. John P., a Representative in Congress from the 
      State of Pennsylvania, Prepared statement on H.R. 3917.....     7
    Otter, Hon. C.L. ``Butch'', a Representative in Congress from 
      the State of Idaho.........................................     2
        Prepared statement on H.R. 4874..........................     4
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 2099, H.R. 3917, and H.R. 4874     2

Statement of Witnesses:
    Anderson, Bruce, Land Surveyor, Kootenai County, Coeur 
      d'Alene, Idaho.............................................    54
        Prepared statement on H.R. 4874..........................    55
    Anderson, Robert, Deputy Assistant Director, Minerals, Realty 
      and Resource Protection, Bureau of Land Management, U.S. 
      Department of the Interior.................................     9
        Prepared statement on H.R. 4874..........................    10
    Hagensen, Bruce, Board Member, Vancouver National Historic 
      Reserve Trust, Vancouver, Washington.......................    40
        Prepared statement on H.R. 2099..........................    42
    Kemmerer, Elizabeth, Flight 93 Family Organization 
      Representative, Budd Lake, New Jersey......................    38
        Prepared statement on H.R. 3917..........................    39
    Pollard, Hon. Royce E., Mayor, City of Vancouver, Washington.    20
        Prepared statement on H.R. 2099..........................    22
    Smith, P. Daniel, Special Assistant to the Director, National 
      Park Service, U.S. Department of the Interior..............    10
        Prepared statement on H.R. 2099..........................    12
        Prepared statement on H.R. 3917..........................    14
    Tokar-Ickes, Pamela, Somerset County Commissioner, Somerset, 
      Pennsylvania...............................................    33
        Prepared statement on H.R. 3917..........................    36


LEGISLATIVE HEARING ON H.R. 2099, TO AMEND THE OMNIBUS PARKS AND PUBLIC 
LANDS MANAGEMENT ACT OF 1996 TO PROVIDE ADEQUATE FUNDING AUTHORIZATION 
FOR THE VANCOUVER NATIONAL HISTORIC RESERVE; H.R. 3917, TO AUTHORIZE A 
 NATIONAL MEMORIAL TO COMMEMORATE THE PASSENGERS AND CREW OF FLIGHT 93 
   WHO, ON SEPTEMBER 11, 2001, COURAGEOUSLY GAVE THEIR LIVES THEREBY 
   THWARTING A PLANNED ATTACK ON OUR NATION'S CAPITAL, AND FOR OTHER 
  PURPOSES; AND H.R. 4874, TO DIRECT THE SECRETARY OF THE INTERIOR TO 
DISCLAIM ANY FEDERAL INTEREST IN LANDS ADJACENT TO SPIRIT LAKE AND TWIN 
 LAKES IN THE STATE OF IDAHO RESULTING FROM POSSIBLE OMISSION OF LANDS 
                          FROM AN 1880 SURVEY

                              ----------                              


                         Tuesday, July 9, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2 p.m., in room 
1334, Longworth House Office Building, Hon. George Radanovich 
[Chairman of the Subcommittee] presiding.

   STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon. The Subcommittee on 
National Parks, Recreation, and Public Lands will come to 
order. And this afternoon we are going to hear testimony on 
three bills, H.R. 3917, H.R. 4874, and H.R. 2099. Our first 
bill, H.R. 3917, is introduced by Representative John Murtha, 
would authorize a national memorial to commemorate the 
passengers and crew of Flight 93 who, on September 11th, 2001, 
courageously gave their lives, thereby thwarting a plane attack 
on our Nation's Capital.
    Our second bill is H.R. 4874, introduced by our Committee 
colleague Butch Otter, which would direct the Secretary of the 
Interior to disclaim any Federal interest in lands adjacent to 
Spirit Lake and Twin Lakes in the State of Idaho resulting from 
possible omission of lands from an 1880 survey.
    Finally, our last bill H.R. 2099, introduced by 
Representative Brian Baird, would amend the Omnibus Parks and 
Public Lands Management Act of 1994 to provide for increased 
funding authorization for the Vancouver National Historic 
Reserve.
    Before--let's see. I am informed that Mrs. Christensen will 
not be here today, so I am going to ask for unanimous consent--
I will likely get it--that Mr. Baird, Mr. Murtha, and Mr. Otter 
would be permitted to sit on the dais following statements. 
Without objection, so ordered.
    Gentlemen, welcome to the hearing. And I think that what we 
will do is go to our first panel, and I am proud to recognize 
the Honorable Butch Otter, Representative from the First 
District of Idaho. Butch, welcome to your Committee, and please 
begin your testimony on H.R. 4874.
    [The prepared statement of Mr. Radanovich follows:]

      Statement of The Honorable George P. Radanovich, Chairman, 
      Subcommittee on National Parks, Recreation, and Public Lands

    Good afternoon. The hearing will come to order.
    This afternoon the Subcommittee will hear testimony on three bills, 
H.R. 3917, H.R. 4874, and H.R. 2099.
    Our first bill, H.R. 3917, introduced by Representative John 
Murtha, would authorize a national memorial to commemorate the 
passengers and crew of Flight 93 who, on September 11, 2001, 
courageously gave their lives thereby thwarting a planned attack on our 
Nation's Capital.
    Our second bill, H.R. 4874, introduced by our Committee colleague 
Butch Otter, would direct the Secretary of the Interior to disclaim any 
Federal interest in lands adjacent to Spirit Lake and Twin Lakes in the 
State of Idaho resulting from possible omission of lands from an 1880 
survey.
    And finally, our last bill, H.R. 2099, introduced by Representative 
Brian Baird, would amend the Omnibus Parks and Public Lands Management 
Act of 1996 to provide for increased funding authorization for the 
Vancouver National Historic Reserve.
    Before turning the time over to Mrs. Christensen, I would ask 
unanimous consent that Mr. Baird, Mr. Murtha, and Mr. Otter be 
permitted to sit on the dais following their statements. Without 
objection, so ordered.
    I now turn to the Ranking Member, Mrs. Christensen for any opening 
statement she may have.
                                 ______
                                 

  STATEMENT OF HON. BUTCH OTTER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mr. Otter. Thank you, Mr. Chairman. I was going--I 
hesitated, but I was going to ask for a division of that 
question, being the only other member of the Committee here. I 
might have allowed myself to sit up there, but I am not so sure 
about Brian.
    Thank you, Mr. Chairman, for having this hearing today and 
for providing the opportunity for me to testify before the 
Subcommittee. I introduced House Resolution 4874, a bill to 
direct the Secretary of Interior to disclaim any Federal 
interest in lands adjacent to Spirit Lake and Twin Lakes in 
northern Idaho. The bill requires the Bureau of Land Management 
to conduct a new survey of the lakes to correct errors 
identified in the original 1880 survey.
    For over 100 years, individuals have owned land around the 
beautiful lakes located in Idaho's Kootenai County. However, 
ownership is now in question for more than 400 families who 
bought the land and have paid taxes on the property. House 
Resolution 4874 will correct that problem.
    In 1880, John B. David, a surveyor under contract with the 
General Land Office, grossly misrepresented portions of the 
actual lakeshore around Spirit Lake and Twin Lakes. In some 
places the meander line along the shore are up to a mile and a 
half away from their actual location. No one noticed the 
inaccurate survey when the land was originally patented, and no 
one caught the mistake over the years as the land changed 
hands. In the meantime, the shorelines of these popular lakes 
have become heavily developed. It was not until recently that 
Kootenai County surveyor Bruce Anderson--who will be testifying 
on the third panel, Mr. Chairman--discovered the problem.
    County officials have expressed concern over their 
inability to approve and regulate new developments, surveys, 
and permits due to the inaccuracy of the original government 
survey. The problem will only worsen as the lake becomes more 
developed. Under current law the Bureau of Land Management is 
required to conduct a survey of the actual meander of the 
lakes. The lands between the old incorrect meander line and the 
new meander line will become omitted land and would revert to 
the Federal ownership. Property owners would be required to 
repurchase at fair market value the land they believed they had 
owned for over 100 years as well as pay for the survey and the 
administrative costs, and I think that that is simply not fair. 
These individuals bought the land in good faith, and the 
government should not be allowed to take it from them simply 
because of a survey error over 120 years ago.
    My legislation corrects the problem by creating a solution 
that retains the correct ownership situation without placing 
the expense of correcting it on the affected property owners. 
H.R. 4874 allows BLM to issue a, quote, disclaimer of interest, 
end quote, in the affected lands so title companies in Kootenai 
County can proceed with ownership-related matters around clear 
title.
    The legislation also authorizes the necessary funding at 
Bureau of Land Management to conduct a new survey and perform 
the required administrative procedures. Most of the property 
owners involved in this situation have a chain of title that 
goes back well over 100 years. H.R. 4874 is really the only 
acceptable solution to that problem, and I look forward to 
hearing from the witnesses, both from the Administration as 
well as from Kootenai County, and I want to work with my 
colleagues on this legislation.
    I thank you very much, Mr. Chairman, for your time.
    Mr. Radanovich. Thank you, Mr. Otter.
    [The prepared statement of Mr. Otter follows:]

 Statement of The Honorable C.L. ``Butch'' Otter, a Representative in 
                    Congress from the State of Idaho

    Mr. Chairman, thank you for having this hearing today and for 
providing the opportunity for me to testify before the Subcommittee.
    I introduced H.R. 4874 a bill to direct the Secretary of the 
Interior to disclaim any Federal interest in lands adjacent to Spirit 
Lake and Twin Lakes in northern Idaho. The bill requires the Bureau of 
Land Management to conduct a new survey of the lakes to correct errors 
identified in the original 1880 survey.
    For over one hundred years, individuals have owned land around the 
beautiful lakes located in Idaho's Kootenai County. However, ownership 
now is in question for more than 400 people who bought the land and pay 
taxes on the property. H.R. 4874 will correct that problem.
    In 1880 John B. David, a surveyor under contract with the General 
Land Office, grossly misrepresented portions of the actual lakeshore 
around Spirit Lake and Twin Lakes. In some places the meander lines 
along the shore are up to a mile and a half away from their actual 
location. No one noticed the inaccurate survey when the land was 
originally patented, and no one caught the mistake over the years as 
the land changed hands. In the meantime, the shorelines of these 
popular lakes have become heavily developed.
    It was not until recently that Kootenai County Surveyor Bruce 
Anderson, who will be testifying on the third panel, discovered the 
problem. County officials have expressed concern over their inability 
to approve and regulate new developments, surveys, and permits due to 
the inaccuracy of the original government survey. The problem will only 
worsen as the lakes become more developed.
    Under current law, the Bureau of Land Management is required to 
conduct a resurvey of the actual meander of the lakes. The lands 
between the old incorrect meander line and the new meander line would 
become omitted land and would revert to Federal ownership. Property 
owners would be required to repurchase, at fair market value, the land 
they believed they owned for over 100 years, as well as pay for survey 
and administrative costs. That is simply not fair. These individuals 
bought the land in good faith and the government should not be allowed 
to take it from them simply because of a survey error over 120 years 
ago.
    My legislation corrects the problem by creating a solution that 
retains the correct ownership situation without placing the expense of 
correcting it on the affected property owners. H.R. 4874 allows BLM to 
issue a ``disclaimer of interest'' in the affected lands so title 
companies and Kootenai County can proceed with ownership related 
matters surrounding clear title. The legislation also authorizes the 
necessary funding for BLM to conduct a new survey and perform the 
required administrative procedures.
    Most of the property owners involved in this situation have a chain 
of title that goes back over 100 years. H.R. 4874 is really the only 
acceptable solution to the problem. I look forward to hearing from the 
witnesses and I want to work with my colleagues to get this legislation 
passed.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Radanovich. We will now move on to the honorable Brian 
Baird, who is representing the Third District of Washington, 
speaking on H.R. 2099. Brian, welcome back to Committee. It is 
good to have you here again, and please begin your testimony.

  STATEMENT OF HON. BRIAN BAIRD, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Baird. Mr. Chairman, I thank you for the opportunity to 
testify before you today. I will make essentially two points, 
which will be reiterated by my good friends Mayor Royce Pollard 
and Bruce Hagensen of America's Vancouver.
    The two points I want to emphasize are these: First of all, 
the historic reserve in Vancouver is of tremendous national 
historical significance, as you will hear shortly. And, second, 
any investment by the Park Service in the National Historic 
Reserve in Vancouver is leveraged strongly by additional 
funding by the local and private partners in this venture.
    Fort Vancouver is located on the banks of the Columbia 
River, and is perhaps the most important significant historical 
site in the Pacific Northwest. It is of rich cultural and 
historical significance, and that historical significance 
actually predates even the Lewis and Clark expedition.
    The Vancouver Barracks was established originally in 1849, 
when the first contingent of U.S. Army troops arrived in the 
newly American lands. From 1849 until World War I, during which 
time some of the Army's most promising officers, including 
Ulysses S. Grant, Phil Sheridan, George McClellan, and George 
C. Marshall, were stationed in Vancouver, during that period 
the barracks was the principal military headquarters for the 
entire Pacific Northwest. Owing to this national significance, 
the site was designated by Congress as a national historical 
monument in 1948, and later as a national historical site. The 
55-acre Vancouver Barracks contains 32 structures, many of 
which have been determined to be eligible for listing on the 
National Register of Historic Places, including several rare 
examples of military architecture.
    The barracks is an important part of the Vancouver National 
Historic Reserve, which was designated by Congress in 1996 for 
coordinated preservation, public use, and management of 
historic sites within the Vancouver area. The reserve was 
established as a partnership among landowners in the reserve, 
which included the National Park Service, the city of 
Vancouver, the U.S. Army, and the Washington State Office of 
Archaeology and Preservation. The 366-acre historic reserve 
contains Fort Vancouver National Historic Site, the Vancouver 
Barracks, Officers Row, Pearson Air Field, the Water Resource 
Center, and portions of the Columbia River waterfront. It is 
truly a unique and wonderful resource.
    The 1996 Act that created the historic reserve provided an 
initial $5 million authorization for capital projects which has 
now been fully appropriated. It is important to note that a 
provision was included in the Fiscal Year 2002 Interior 
appropriations bill which essentially said there will be no 
further Federal appropriations for capital projects until a new 
authorization for such projects is approved by Congress. Of 
great importance to the district and to our Nation, the 
legislation before us today would increase from 5 million to 25 
million the authorization for appropriations.
    For over a half century, local, State and Federal agencies, 
along with private individuals and organizations, have 
collaborated to preserve and interpret the history of Vancouver 
and the region. During the past 15 years--and this is important 
to emphasize--more than $30 million has been invested in 
property improvements and projects within the present historic 
reserve boundaries. The Federal Government to date has provided 
approximately 25 percent of the capital funds, while the 
remaining 75 percent has been provided by local and State 
governments and foundations, such as the Vancouver National 
Historic Trust as well as individuals and businesses. You will 
be hearing from, again, my friends Mayor Pollard and former 
Mayor Hagensen about these investments.
    Based on the Barracks Adaptive Reuse and Economic Analysis, 
it has been determined that rehabilitation of buildings in the 
area will require approximately $40 million. The city of 
Vancouver has committed $6 million for this purpose, the State 
of Washington has committed $6 million for educational uses, 
and private donations will make up an additional 8 million; 
hence, the aforementioned leveraging of the Federal funds. Thus 
we are asking for eventually a total Federal contribution of 
$20 million, which is why we need the authorization today.
    I appreciate the Committee's careful consideration of this 
request for an increase in authorization for Fort Vancouver 
National Historic Reserve, and I look forward to working with 
the Chairman and the Committee to make that happen. I 
appreciate your time today and your interest in this matter.
    Mr. Radanovich. Thank you, Mr. Baird.
    [The prepared statement of Mr. Baird follows:]

 Statement of The Honorable Brian Baird, a Representative in Congress 
                      from the State of Washington

    Mr. Chairman, Madame Ranking Member, and Members of the 
Subcommittee, I appreciate the opportunity to testify before you today 
in support of my legislation, H.R. 2099. This bill would increase the 
authorization for Federal spending on preserving and rehabilitating the 
Fort Vancouver National Historic Reserve.
    Fort Vancouver, located on the banks of the Columbia River, is 
perhaps the most significant historic site in the Pacific Northwest. It 
is rich in historic and cultural national significance, pre-dating the 
arrival of Lewis and Clark through the mid-20th century. Before the 
arrival of the American traders and well before the Lewis and Clark 
expedition arrived, this site on the shore of the Columbia River was a 
home to a variety of Indian tribes for over 10,000 years, including the 
Cascades, Chehalis, Chinook, Clallam, Cowlitz, Klickitat, Nisqually, 
Tillamook, and Shasta tribes. Fort Vancouver was also headquarters for 
the Hudson's Bay Company's Columbia Department, embracing present-day 
British Columbia, Washington, Oregon and Idaho. The trading post, which 
was the center of the region's fur trading enterprise, represented 
Britain's business and governmental interests in competition with the 
United States. The 1846 treaty between Great Britain and the United 
States established today's northern-most boundary at the 49th parallel.
    The Vancouver Barracks was established in 1849 when the first 
contingent of U.S. Army troops arrived in the newly American lands. 
From 1849 until World War I, during which time some of the Army's most 
promising officers (including Ulysses S. Grant, Phillip Sheridan, 
George McClellan and George C. Marshall) were stationed at Vancouver, 
the barracks was the principal military headquarters for the Pacific 
Northwest. Owing to its national significance, the site was designated 
by Congress as a National Historic Monument in 1948, and later as a 
National Historic Site. The 55-acre Vancouver Barracks contains 32 
structures, many of which have been determined to be eligible for 
listing on the National Register of Historic Places, including several 
rare examples of military architecture.
    The Vancouver Barracks is an important part of the Vancouver 
National Historic Reserve, which was designated by Congress in 1996 for 
the coordinated preservation, public use and management of historic 
sites within the Vancouver area. The Reserve was established as a 
partnership among the landowners in the Reserve, which include the 
National Park Service, the city of Vancouver, the U.S. Army and the 
Washington State Office of Archaeology and Historic Preservation. The 
366 acre Historic Reserve contains Fort Vancouver National Historic 
Site, the Vancouver Barracks, Officers Row, Pearson Field, the Water 
Resources Center and portions of the Columbia River waterfront.
    Today, I welcome the opportunity to discuss the importance of H.R. 
2099, which seeks to preserve Fort Vancouver for future generations. 
The 1996 Act that created the Historic Reserve provided an initial $5 
million authorization for capital projects, which has been fully 
authorized. It is important to note that a provision was included in 
the Fiscal Year 2002 Interior Appropriations bill which essentially 
says there would be no further Federal appropriations for capital 
projects within the Vancouver National Historic Reserve unless and 
until a new ``authorization'' for capital projects is approved by 
Congress. Of great importance to my congressional district, to the 
Pacific Northwest and our nation, the legislation would increase from 
$5 million to $25 million the authorization of appropriations for the 
Vancouver National Historic Reserve development costs.
    For over half a century local, state and Federal Government 
agencies, along with numerous private individuals and organizations, 
have been collaborating to preserve and interpret the history of the 
Vancouver area and the region. During the past 15 years in excess of 
$30 million has been invested in property improvements and projects 
within the present Historic Reserve boundaries. The Federal Government 
has provided approximately 25% of the capital funds for these efforts. 
The remaining 75% has been provided by local and state governments, 
foundations such as the locally based Vancouver National Historic 
Trust, and numerous other individuals, businesses and not-for-profit 
organizations. In fact, you will be hearing from two of these partners, 
Vancouver Mayor Royce Pollard and Bruce Hagensen, Board Member of the 
Vancouver National Historic Reserve Trust, later during this hearing.
    Based on the Vancouver Barracks Adaptive Reuse and Economic 
Analysis completed in early 2000, it has been determined that the 
rehabilitation of buildings and the adaptations necessary for new uses 
in the west barracks will cost approximately $40 million. The city of 
Vancouver has committed $6 million for infrastructure improvements, the 
state of Washington has committed $6 million for educational uses, and 
private donations will make up an additional $8 million for building 
preservation efforts. A total Federal contribution of $20 million is 
being sought to match non-Federal funding for the west Barracks 
project. This Federal funding has been deemed key to successful private 
fund-raising efforts, securing tenants for the property, minimizing the 
impact of inflation and avoiding additional serious property 
deterioration.
    I appreciate your careful consideration of this request for an 
increase in the authorization for the Fort Vancouver National Historic 
Reserve. I look forward to working with you, Mr. Chairman, and the 
other members of the Subcommittee to move this legislation forward and 
continue progress on this significant project for the Pacific Northwest 
and our nation.
    Thank you, Mr. Chairman. I look forward to answering any questions 
that members of the Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. Our next bill is H.R. 3917. Representative 
John Murtha was unavoidably detained and won't be here to make 
an opening statement or to testify; however, we do have his 
written testimony on hand, and I ask unanimous consent that Mr. 
Murtha's statement be included into the record. There being no 
objection--Mr. Otter, are you OK with that?
    Mr. Otter. Yes.
    Mr. Radanovich. OK. So ordered.
    [The prepared statement of Mr. Murtha follows:]

Statement of The Honorable John P. Murtha, a Representative in Congress 
                     from the State of Pennsylvania

    I want to thank the Chairman, Ranking Member and the Subcommittee 
for holding this hearing on this extremely important bill.
    By now we are all too familiar with the story of United Airlines 
Flight 93, which crashed on September 11, 2001 in Shanksville, 
Pennsylvania at 10:06 am after being hijacked by terrorists en route 
from Newark, New Jersey to San Francisco, California.
    The people on Flight 93 were courageous and heroic in giving their 
lives to bring down that airplane before it could reach its intended 
target in our Nation's capital. Hundreds if not thousands of additional 
lives would have been lost, and our government would have been 
disrupted if this attack had been carried out as planned. I don't think 
anybody can argue with the fact that the crash site has national 
historical significance as the first site in America where citizens 
fought back against terrorism. As the bill says, the crash site is 'a 
profound symbol of American patriotism and spontaneous leadership of 
citizen-heroes.'
    As we approach the one-year anniversary of that fateful, horrible 
day in our Nation's history, I am confident that we will pass this bill 
expeditiously to indicate our unwavering commitment to honoring these 
brave souls with a memorial site befitting their character.
    The passage of this legislation will not set in stone any type of 
memorial plan, but rather a process for establishing a memorial site. 
The process of designing this National Monument must move forward, but 
it also must be careful and deliberate. All stakeholders need a voice 
in the process. That includes the family of passengers and crew, the 
local community surrounding the crash site, landowners at the site, the 
Commonwealth of Pennsylvania, emergency responders, historians and the 
National Park Service, who will inherit the responsibility for not only 
assisting in the design, development and construction of the memorial 
but maintaining the memorial site in perpetuity.
    As we envisioned the process, two groups will be involved:
    The Flight 93 Task Force will be organized by local stakeholders 
and families of victims. It is my understanding that this 
organizational effort has begun and has been ongoing as the families of 
victims have been sorting out who will be primarily speaking for them. 
However, it will be given added momentum by the passage of this 
legislation. The Task Force will be as broad-based as possible among 
the affected parties and include as many people as possible to satisfy 
concerns regarding input. I think everyone agrees fully with this 
concept of including as much input as possible from the stakeholders to 
make sure all have a say and their concerns are addressed throughout 
the process.
    The Task Force will recommend members whom the Secretary of 
Interior will appoint to a 15-Member Flight 93 Advisory Commission. 
This Commission will then undertake the formal process of developing 
the plan for the site. As with the Task Force, it is expected that the 
Commission will comprise the broadest and fairest possible 
representation of all stakeholders.
    Nearly one million dollars have already been raised privately for 
this memorial, and we expect more donations as the process moves 
forward. However, I also look forward to working with my Colleagues in 
Congress to ensure that the project receives adequate Federal funding 
as needed.
    I would like to thank each and every single person who has worked 
and will continue to work to make this memorial a reality.
    Finally, I would also like to remember individually the people on 
that plane. They are the reason we are here today. They are:


                ,--                                   ,

        Jason Dahl                   Jane Folger
        LeRoy Homer, Jr.             Colleen L. Fraser
        Lorraine Bay                 Andrew Garcia
        Sandra Bradshaw              Jeremy Glick
        Cee Cee Lyles                Lauren Grandcolas
        Wanda Green                  Donald F. Greene
        Deborah Anne Jacobs Welsh    Linda Gronlund
        Christian Adams              Richard Guadagno
        Todd Beamer                  Toshiya Kuge
        Alan Beaven                  Hilda Marcin
        Mark Bingham                 Waleska Martinez
        Deora Bodley                 Nicole Miller
        Marion Britton               Louis J. Nacke II
        Thomas E. Burnett Jr.        Donald and Jean Peterson
        Willam Cashman               Mark ``Mickey'' Rothenberg
        Georgine Rose Corrigan       Christine Snyder
        Patricia Cushing             John Talignani
        Joseph DeLuca                Honor Elizabeth Wainio
        Patrick ``Joe'' Driscoll     Kristin Gould White
        Edward Porter Felt


    Thank you.
                                 ______
                                 
    Mr. Radanovich. And with that, I want to thank you 
gentlemen. You are more than welcome to join us on the dais for 
the rest of the hearing.
    And we will move on to panel two, which is Mr. Daniel 
Smith, special assistant to the Director of the National Park 
Service, and also Robert Anderson, the Deputy Assistant for 
Minerals, Realty, and Resource Protection of the BLM, to speak 
on these bills.
    Gentlemen, welcome. We are going to turn the clock on you 
guys. It is a 5-minute clock. Give your testimony. And it is 
just like the regular traffic rules: Green is go, yellow is 
speed up, and red is stop.
    So, you may begin your testimony, Mr. Anderson. Welcome to 
the Committee; and let's go.

 STATEMENT OF ROBERT ANDERSON, DEPUTY ASSISTANT FOR MINERALS, 
   REALTY, AND RESOURCE PROTECTION, BUREAU OF LAND MANAGEMENT

    Mr. Robert Anderson. Mr. Chairman, thank you for the 
opportunity to testify on H.R. 4874. This bill directs the 
Secretary of the Interior to disclaim any Federal interest in 
lands adjacent to Spirit and Twin Lakes in Idaho resulting from 
omission of such lands from an 1880 survey. The Department of 
Interior supports H.R. 4874.
    Errors were recently discovered in the 1880 survey of the 
Spirit and Twin Lakes area. The original survey shows the 
meander lines along the lakes at up to 1/2 mile away from their 
actual location, in effect omitting about 600 acres of land 
from the official survey of record. Between 1891 and 1908, land 
surrounding the lakes was patented out of Federal ownership 
based on the belief that the 1880 survey was correct. A 
discovery of errors in the 1880 survey raises concerns about 
potential clouds on title to some 400 properties along these 
two lakes. Many property owners have a chain of title that goes 
back over 100 years. No one disputes that the current cloud on 
the title is due to errors of the 1880 survey.
    The Bureau of Land Management has no interest in retaining 
the lands and believes it is in the public interest to remove 
the cloud on the many titles to the property. This is an 
unusual situation because it involves a large number of private 
homes and lands with lengthy chains of title. The 1880 
surveyors were discovered by private and Kootenai County 
surveyors and brought to the attention of BLM in 2001.
    The BLM believes that use of the normal Agency procedures 
for clearing lands, title to lands erroneously described in the 
1880 survey would raise unnecessary concerns to affected 
residents and be costly and time-consuming to property owners 
and the United States.
    H.R. 4874 would authorize BLM to investigate alleged errors 
in the 1880 survey; to resurvey the area to establish the 
official record of land and lakeshore areas; and, based on that 
resurvey, issue a disclaimer of interest that would divest the 
United States of any interest in the affected lands. The 
investigation and resurvey authorized by H.R. 4874 would allow 
the BLM to establish an official survey plat through which 
legal descriptions of real property could be referenced. This 
would remove the cloud on title to over 400 properties. The 
Department believes the establishment of an accurate survey 
plat is in the public interest, and therefore it is appropriate 
that the Federal Government rather than the individual 
landowners bear the costs of the resurvey.
    The Department supports enactment of H.R. 4874, and would 
like to work with the Committee on a few technical changes to 
the legislation.
    Mr. Chairman, this concludes my statement. Thank you.
    Mr. Radanovich. Thank you very much, Mr. Anderson.
    [The prepared statement of Mr. Robert Anderson follows:]

  Statement of Robert Anderson, Deputy Assistant Director, Minerals, 
    Realty and Resource Protection, Bureau of Land Management, U.S. 
                       Department of the Interior

    Thank you for the opportunity to testify on H.R. 4874. This bill 
directs the Secretary of the Interior to disclaim any Federal interest 
in lands adjacent to Spirit Lake and Twin Lakes in Idaho resulting from 
the omission of such lands from an 1880 survey. The Department of the 
Interior supports H.R. 4874.
    Errors were recently discovered in an 1880 survey of the Spirit 
Lake and Twin Lakes areas. The original survey shows the meander lines 
along the lakes at up to one-half mile away from their actual location, 
in effect omitting approximately 600 acres of land from the official 
survey of record. Between 1891 and 1908, land surrounding the lakes was 
patented out of Federal ownership based on the belief that the 1880 
survey was correct. The discovery of the errors in the 1880 survey 
raises concerns about potential clouds on title to some 400 properties 
along these two lakes. Many property owners have a chain of title that 
goes back over 100 years. No one disputes that the current cloud on the 
title is due to the errors in the 1880 survey. The Bureau of Land 
Management (BLM) has no interest in retaining the lands erroneously 
omitted from the 1880 survey, and believes it is in the public interest 
to remove the clouds on title to the properties.
    This is an unusual situation because it involves a large number of 
private homes and lands with lengthy chains of title. The 1880 survey 
errors were discovered by private and Kootenai County surveyors and 
brought to the attention of the BLM in 2001. The BLM believes that use 
of normal agency procedures for clearing title to the lands erroneously 
described in the 1880 survey would raise unnecessary concerns to 
affected residents and be costly and time consuming to property owners.
    H.R. 4874 would authorize the BLM to investigate alleged errors in 
the 1880 survey, resurvey the area to establish the official record of 
land and lakeshore areas, and, based on that resurvey, issue a 
``disclaimer of interest'' that would divest the United States of any 
interest in the affected lands. The investigation and resurvey 
authorized by H.R. 4874 would allow the BLM to establish an official 
survey plat to which legal descriptions of real property could be 
referenced. This would remove the cloud on title to over 400 properties 
resulting from the errors in the 1880 survey. The Department believes 
establishment of an accurate survey plat is in the public interest, and 
therefore it is appropriate that the Federal Government, rather than 
individual landowners, bear the cost of the resurvey.
    The Department supports enactment of H.R. 4874, and would like to 
work with the Committee on some technical changes to the legislation. 
This concludes my statement. I would be pleased to answer any 
questions.
                                 ______
                                 
    Mr. Radanovich. Mr. Smith, welcome to the Committee, here 
to speak on, I believe, two bills.
    Mr. Smith. Yes, Mr. Chairman. And I will summarize both and 
submit the entire testimony for the record.
    Mr. Radanovich. Terrific.

    STATEMENT OF P. DANIEL SMITH, SPECIAL ASSISTANT TO THE 
                DIRECTOR, NATIONAL PARK SERVICE

    Mr. Smith. Mr. Chairman, thank you for the opportunity to 
appear before your Committee to present the views of the 
Department of the Interior on H.R. 3917, a bill to commemorate 
the passengers and crew of Flight 93 who, on September 11, 
2001, courageously gave their lives thereby thwarting a planned 
attack on our Nation's Capital and for other purposes. The 
Department supports the enactment of this bill with minor 
amendments discussed at the end of this testimony.
    On September 11, 2001, terrorists hijacked four United 
States passenger aircraft with the intent to kill American 
citizens and to use the planes as weapons to destroy important 
structures critical to this country. The targets were in New 
York City and Washington, D.C. Three out of four of the planes 
hit their mark, destroying the Twin Towers of the World Trade 
Center, destroying a significant portion of the Pentagon, 
causing the deaths of almost 3,000 people, and affecting 
millions of people worldwide.
    But one hijacked plane did not succeed in its mission. 
Passengers and crew on the fourth plane, United Airlines Flight 
93, learned of these disasters in midair and took heroic 
action--excuse me--by thwarting a planned attack on our 
Nation's Capital, which resulted in the crash of the plane into 
a field in Shanksville, Pennsylvania, within the rural, remote, 
and previously peaceful Stonycreek Township.
    The passengers and crew of Flight 93 are remembered and 
honored as having given their lives to save others. They have 
inspired other airline passengers and crews to be significantly 
more vigilant and proactive in dealing with hijackers, and have 
directly influenced new airline security systems. Flight 93 
will be understood to be nationally significant, because on 
Flight 93 America began to fight back.
    The way people traditionally mourn victims of catastrophic 
events by visiting the site of the occurrence reflects an 
instinctive public choice of the appropriate location for a 
memorial. In the months that followed September 11th's attacks, 
thousands of people have visited the Flight 93 site, drawn by 
the heroic action and sacrifice of the Flight 93 passengers and 
crew. Many are profoundly concerned about the future 
disposition of the crash site, including grieving families of 
the passengers and crew, the people of the region who are the 
current stewards of the site, and a broad spectrum of citizens 
across the United States.
    The Stonycreek Township and Shanksville have no resources 
to enable them to protect the site from inappropriate relic 
seekers or to serving the visiting public. Congress provided 
emergency appropriations to secure the site, but for only a 
short time. Establishing a permanent memorial would serve as a 
meaningful way to honor those who sacrificed their lives on 
September 11th, and would provide an opportunity to provide a 
respectful setting for family members and other visitors.
    Like so many families in America, we continue to mourn the 
loss of a member of our Interior family, Richard Guadagno, a 
17-year employee of the U.S. Fish and Wildlife Service and 
manager of the Humboldt Bay National Wildlife Refuge in 
California, who was among the heroic passengers of Flight 93. 
The Department offers our deepest sympathy to all those who 
lost a friend or family member because of the attacks on 9/11.
    The National Park Service has had the opportunity to 
conduct reconnaissance and analysis of the site of the crash of 
Flight 93. Numerous National Park Service professional staff 
have visited the Flight 93 site over the past 10 months to 
understand the site and its changes over time and to meet with 
local people, including landowners, the local historical 
society volunteers, the mayor of Shanksville, county 
commissioners, rescue workers, and others to provide technical 
assistance and advice.
    There is a critical need for the National Park Service to 
provide technical assistance to consult on the immediate needs 
of collection, storage, oral history, and archives. We learned 
from our role at the Vietnam Veterans Memorial, there is a 
great need to permit the public to place mementos and express 
feelings. The Somerset County Historical Society has begun an 
archive and collection of such materials; the National Park 
Service should be available to provide whatever consultation or 
assistance is desired.
    This legislation recognizes the need for a special process 
to determine how best to treat the site, whether as a preserved 
landscape, a designed memorial structure, or some other 
appropriate treatment. Most importantly, the legislation, with 
special sensitivity and insight, provides time for listening 
and time for allowing a consensus to build, with an appropriate 
role for the family members of the flight passengers and crew, 
for the public, the community, and for the Secretary of 
Interior. It is appropriate the crash sight of Flight 93 be 
designated a national memorial as a unit of the National Park 
System, and that it be done contemporaneously, and that the 
National Park Service participate in this public process.
    The legislation suggests the commission will have the 
authority to raise funds. We believe many Americans will want 
to have an active part in the fundraising process and therefore 
recommend that the authorization for fundraising be explicit in 
the legislation.
    We look forward to work with the Committee on this 
amendment and a couple of technical amendments needed to the 
bill.
    [The prepared statement of Mr. Smith follows:]

   Statement of P. Daniel Smith, Special Assistant to the Director, 
         National Park Service, U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 2099, a bill to amend the 
Omnibus Parks and Public Lands Management Act of 1996 to increase the 
authorization of appropriations for the Vancouver National Historic 
Reserve and for the preservation of Vancouver Barracks.
    The Department recognizes and appreciates the efforts of our 
partners to cooperatively administer the Vancouver National Historic 
Reserve. This is a partnership that has worked well, and we look 
forward to continuing our work with the City of Vancouver, State of 
Washington, and the Department of the Army to achieve the goals outline 
in the Cooperative Management Plan for the Reserve. However, in light 
of the Department's commitment to supporting the President's initiative 
to eliminate the deferred maintenance backlog in our parks, we cannot 
support diverting limited funds away from the Service's own needs. We 
believe that funds that are appropriated to the National Park Service 
are more appropriately directed to reducing the long list of necessary 
but deferred construction projects that have been identified in our 
national parks.
    The Vancouver area of southwestern Washington was an important site 
of 19th-century social, economic, political, and military activity in 
the Pacific Northwest. In recognition of its historical significance, 
Congress in 1948 designated a portion of the area Fort Vancouver as a 
National Monument, and in 1961 Fort Vancouver became a National 
Historic Site. Over the next several decades, continuing efforts to 
preserve the area's other historic sites prompted Congress, in 1990, to 
pass legislation authorizing the creation of a Vancouver Historical 
Study Commission. Subsequently, the commission recommended the 
establishment of a reserve as the best management strategy for 
protection of the resources within the study area, and in 1996, 
Congress passed legislation that established the Vancouver National 
Historic Reserve. The Reserve itself is not a unit of the National Park 
System, although the Fort Vancouver National Historic Site component is 
part of the System.
    The Reserve encompasses 366 acres along the Columbia River within 
the City of Vancouver, Washington, and includes a particularly rich 
collection of cultural resources, including Fort Vancouver National 
Historic Site, Officers Row, Vancouver Barracks, Pearson Air Museum and 
Air Field, portions of the Columbia River waterfront, and the Water 
Resources Education Center. In this nationally significant historic 
setting, the Reserve celebrates well over 200 years of history 
including the use of the area by Native Americans; the creation of the 
first multi-cultural village of its kind in the Pacific; the Hudson Bay 
Company's Fort Vancouver, which was one of the largest such British 
enterprises; and the growth of the U.S. Army in the Pacific Northwest 
as reflected in the historic Officers Row and Vancouver Barracks.
    The law that established the Reserve directed the preparation of a 
general management plan to be developed by a partnership comprised of 
the National Park Service, the Historic Preservation Office of the 
State of Washington, the Department of the Army, and the City of 
Vancouver, Washington. The plan, completed in early 2000 and approved 
by the Secretary of the Interior, envisions an active public/private 
partnership in managing the shared assets of the Reserve. The Reserve 
partners, while maintaining full authority and management 
responsibilities for their individual areas consistent with applicable 
laws, work cooperatively on all matters relating to the Reserve. 
Additional financial support comes from the privately based nonprofit 
Vancouver National Historic Reserve Trust. The cornerstones of the 15-
year Cooperative Management Plan are preservation, education, and 
public use.
    The plan, however, is not a budget document. While it identified 
estimated costs for recommended actions, it did not commit any of the 
agencies or other partners to specific funding requirements. Signature 
by the partners or the Secretaries did not commit the Department of 
Interior or Army to any funding requirements outside of agency budgets 
as approved by Congress.
    The law that established the Reserve authorized the appropriation 
of $400,000 annually for operational costs, and a total of $5 million 
for development costs. These funds have been provided in the National 
Park Service budgets for fiscal years 1998 through 2002 in the 
construction and statutory aid accounts.
    The Cooperative Management Plan for the Reserve provided a summary 
of development costs estimated at approximately $85 million (in 1998 
dollars). The plan contemplates that the costs will be shared by the 
Federal Government, the state, the city, nonprofit groups and 
organizations, and private investors, corporations, and businesses. The 
Federal share could be allocated from the U.S. Army, the U.S. Army 
Reserve, the Department of Defense, or the Department of the Interior.
    The Vancouver National Historic Reserve has benefitted greatly from 
the contributions made by our partners and other donors, who have 
already provided over $19 million for a wide variety of projects, and 
plan to provide approximately $20 million more for projects that have 
already been identified.
    We would like to emphasize that we are committed to working with 
our partners in the Vancouver National Historic Reserve to find 
appropriate ways to meet the goals outlined in the Cooperative 
Management Plan. We encourage our partners in the Reserve to continue 
to seek funding and other solutions for the preservation and protection 
of its resources through grants and other programs administered by the 
Service, the Department, and other Federal agencies.
    This concludes my testimony. I am glad to answer any questions that 
you or members of the Subcommittee may have.
                                 ______
                                 
    Mr. Smith. Mr. Chairman, the second bill is H.R. 2099, 
which would amend the Omnibus Parks and Public Lands Management 
Act of 1996 to increase the authorization of appropriations for 
the Vancouver National Historic Reserve and for the 
preservation of Vancouver Barracks.
    The Department recognizes and appreciates the efforts of 
our partners to cooperatively administer the Vancouver National 
Historic Reserve. This is a partnership that has worked well, 
and we look forward to continuing our work with the city of 
Vancouver, State of Washington, and the Department of the Army 
to achieve the goals outlined in the cooperative management 
plan for the reserve. However, in light of the Department's 
commitment to supporting the President's initiative to 
eliminate the deferred maintenance backlog in our parks, we 
cannot support diverting limited funds away from the Service's 
own needs. We believe that the funds that are appropriated to 
the National Park Service are more appropriately directed to 
reducing the long list of necessary, but deferred construction 
projects that have been identified in our national parks.
    Congress in 1948 designated a portion of the area, Fort 
Vancouver, as a national monument, and in 1961 Fort Vancouver 
became a national historic site. In 1996, Congress passed 
legislation that established the Vancouver National Historic 
Reserve. The reserve itself is not a unit of the National Park 
System, although the Fort Vancouver National Historic Site 
component is part of the System. The reserve encompasses 366 
acres along the Columbia River within the city of Vancouver, 
Washington, and includes a particularly rich collection of 
cultural resources. The Fort Vancouver National Historic Site 
is approximately 208 of those acres.
    The law that established the reserve directed the 
preparation of a general management plan to be developed by a 
partnership comprised of the National Park Service, the 
Historic Preservation Office of the State of Washington, the 
Department of the Army, the city of Vancouver, and others. The 
plan, completed in early 2000 and approved by the Secretary of 
the Interior, envisions an active public/private partnership in 
managing the shared assets of the reserve.
    The plan, however, is not a budget document. While it 
defined--while it identified estimated costs for recommended 
actions, it did not commit any of the agencies or other 
partners to specific funding requirements. The law that 
established the reserve authorized the appropriation of 400,000 
annually for operational costs and a total of 5 million for 
development costs. These funds have been provided to the 
National Park Service budgets for fiscal years 1998 through 
2002 in the construction and statutory aid accounts.
    The cooperative management plan for the reserve provided a 
summary of development costs estimated at approximately $85 
million. The plan contemplates that the costs will be shared by 
the Federal Government, the State, the city, nonprofit groups, 
and organizations, and private investors, corporations, and 
visitors. The Federal share could be allocated from the U.S. 
Army, the U.S. Army Reserve, the Department of Defense, or the 
Department of the Interior.
    We would like to emphasize that we are committed to working 
with our partners in the Vancouver National Historic Reserve to 
find appropriate ways to meet the goals outlined in the 
cooperative management plan. We encourage our partners in the 
reserve to continue to seek funding and other solutions for the 
preservation and protection of its resources through grants and 
other programs administered by the Service, the Department, and 
other Federal agencies.
    Mr. Chairman, this concludes my testimony on the two bills, 
and I look forward to any questions you or members of the 
Committee may have.
    Mr. Radanovich. Thank you, Mr. Smith.
    [The prepared statement of Mr. Smith follows:]

   Statement of P. Daniel Smith, Special Assistant to the Director, 
         National Park Service, U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to appear before your 
Committee to present the views of the Department of the Interior on 
H.R. 3917, a bill to commemorate the passengers and crew of Flight 93 
who, on September 11, 2001, courageously gave their lives thereby 
thwarting a planned attack on our Nation's Capital, and for other 
purposes. The Department supports the enactment of this bill with minor 
amendments discussed at the end of our testimony.
    H.R. 3917 would do several things. It would establish a national 
memorial at the crash site to honor the passengers and crew of United 
Airlines Flight 93 of September 11, 2001; it would establish a Flight 
93 Advisory Commission to assist with consideration and formulation of 
plans for a permanent memorial to the passengers and crew of Flight 93, 
including its nature, design and construction; and it would authorize 
the Secretary of the Interior to coordinate and facilitate the 
activities of the Flight 93 Advisory Commission, provide technical and 
financial assistance to a Flight 93 Task Force, and to administer a 
Flight 93 memorial as a unit of the National Park System.
    On September 11, 2001, terrorists hijacked four United States 
passenger aircraft with the intent to kill American citizens and to use 
the planes as weapons to destroy important structures critical to this 
country. The targets were in New York City and Washington, D.C. Three 
out of four planes hit their mark destroying the Twin Towers of the 
World Trade Center, destroying a significant portion of the Pentagon, 
causing the deaths of almost 3,000 people, and affecting millions of 
people worldwide.
    But one hijacked plane did not succeed in its mission. Passengers 
and crew on the fourth plane, United Airlines Flight 93, learned of 
these disasters in mid-air, and took heroic action by thwarting a 
planned attack on our Nation's Capital, which resulted in the crash of 
the plane into a field in Shanksville, Pennsylvania, within the rural, 
remote and previously peaceful Stonycreek Township. The passengers and 
crew of Flight 93 are remembered and honored as having given their 
lives to save others. They have inspired other airline passengers and 
crews to be significantly more vigilant and proactive in dealing with 
hijackers and have directly influenced new airline security systems. 
Flight 93 will be understood to be nationally significant because on 
Flight 93, America began to fight back.
    The way people traditionally mourn victims of catastrophic events 
by visiting the site of the occurrence reflects an instinctive public 
choice of the appropriate location for a memorial. In the months that 
followed the September 11th attacks, thousands of people have visited 
the Flight 93 site, drawn by the heroic action and sacrifice of the 
Flight 93 passengers and crew. Many are profoundly concerned about the 
future disposition of the crash site, including grieving families of 
the passengers and crew, the people of the region who are the current 
stewards of the site, and a broad spectrum of citizens across the 
United States. Many of these people are forming a Flight 93 Task Force 
as a broad, grassroots, inclusive organization to provide a voice for 
all interested and concerned parties.
    The Stonycreek Township and Shanksville have no resources to enable 
them to protect the site from inappropriate relic seekers, or to serve 
the visiting public. Congress provided emergency appropriations to 
secure the site, but for a short time only. Establishing a permanent 
memorial would serve as a meaningful way to honor those who sacrificed 
their lives on September 11th and would provide an appropriately 
respectful setting for family members and other visitors. As we 
testified earlier this year on another memorial bill, in the case of 
enormous national tragedies, we have found that commemoration seems 
most appropriate at the site of the tragedy itself. The Oklahoma City 
National Memorial would not have nearly the power it has if it had been 
constructed anywhere else but at the site of the Murrah Building. The 
memorial landscapes of Gettysburg and Antietam National Battlefields 
still haunt visitors who contemplate what occurred there nearly 150 
years ago. Indeed, people from all over the world continue to be drawn 
to these hallowed grounds to reflect on the historical events that took 
place at these sites or to pay their respects to those who lost their 
lives there.
    Like so many families in America, we continue to mourn the loss of 
a member of our Interior family. Richard Guadagno, 17-year employee of 
the U.S. Fish and Wildlife Service and manager of the Humboldt Bay 
National Wildlife Refuge in California, was among the heroic passengers 
on Flight 93. The Department offers our deepest sympathy to all those 
who lost a friend or family member because of the attacks on September 
11th. We understand that the road to healing will be long, but we 
believe that through the strength and unity of this country, the spirit 
of America lives on.
    Public Law 105-391, the National Parks Omnibus Management Act of 
1998, requires congressional authorization of areas to be studied for 
potential new units of the National Park System. The law also 
designates the criteria to be followed by the National Park Service in 
determining whether to recommend an area as a unit of the National Park 
System. The National Park Service has had the opportunity to conduct a 
reconnaissance and analysis of the site of the crash of Flight 93. 
Numerous National Park Service professional staff have visited the 
Flight 93 site over the past ten months to understand the site and its 
changes over time, to meet with local people including landowners, the 
local historical society, volunteers, the Mayor of Shanksville, County 
Commissioners, rescue workers, and others, to provide advice and 
technical assistance in the areas of site security and in the 
preservation and curation of artifacts left by visitors at the site, 
and to facilitate public meetings regarding the future of the site. We 
also brought to the site people directly involved with the creation of 
the Oklahoma City National Memorial to provide assistance to the local 
people and officials. Although this would not be considered a standard 
special resource study as required under the public law, these visits 
and meetings have provided information on the site's significance, 
ability of local and regional governments in managing the site on a 
long-term basis as a memorial site, and providing services to a large 
number of visitors on a long-term basis.
    H.R. 3917 also departs from the normal process for creation of a 
unit of the National Park System because places that may be deemed 
historical in nature are typically not designated until the passage of 
a sufficient interval of time to allow for historical judgment. Yet, 
the events of September 11th are so clearly important to contemporary 
America that some kind of national recognition is appropriate now. In 
addition, there is a crucial need for National Park Service technical 
assistance to be available to consult on the immediate needs of 
collections, storage, oral history, and archives. We learned from our 
role at the Vietnam Veteran's Memorial there is a great need to permit 
the public to place mementos and express feelings. The Somerset County 
Historical Society has begun an archive and collection of such 
materials; the National Park Service should be available to provide 
whatever consultation or assistance is desired. During consideration of 
the appropriate treatment of the site, the families, the community, the 
public and the commission will likely need staff support for the public 
process and for design and planning.
    This legislation recognizes the need for a special process to 
determine how best to treat the site, whether as a preserved landscape, 
a designed memorial structure, or some other appropriate treatment. 
Most importantly, the legislation, with special sensitivity and 
insight, provides time for listening and time to allow a consensus to 
develop, with an appropriate role for the family members of the flight 
and crew, for the public, the community, and the Secretary of the 
Interior.
    While generally we have requested no new additions to the National 
Park System while we continue to focus our resources on caring for 
existing areas in the National Park System, there is little doubt that 
the events of September 11th were nationally significant and have had 
international implications. It is appropriate that the crash site of 
Flight 93 be designated as a national memorial, as a unit of the 
National Park System, that it be done contemporaneously, and that the 
National Park Service participate in a sensitive process with the 
public and the affected parties to recommend the appropriate treatment 
of the site. One family member of a passenger of Flight 93, at a press 
conference announcing the introduction of this legislation expressed a 
desire that the memorial be ``a place of beauty.'' The National Park 
Service would like to support the families, the public, and the 
community while they develop their vision to achieve this goal.
    The legislation suggests the commission will have the authority to 
raise funds. We believe many Americans will want to have an active part 
in the fundraising process, and therefore, recommend that the 
authorization for fundraising be explicit in the legislation. We look 
forward to working with the Committee on this amendment and a couple of 
technical amendments needed to the bill.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other Committee members might have.
                                 ______
                                 
    Mr. Radanovich. Is there any questions from anybody on the 
panel?
    Mr. Baird.
    Mr. Baird. Mr. Smith, briefly. I fully understand the 
challenge the National Park Service faces with the backlog of 
maintenance and other projects, and I respect that and 
appreciate your comments in that regard.
    What I find unique about the Vancouver Barracks and the 
historic reserve is that there is tremendous leveraging of the 
funds, and essentially you are getting buy one, get two free, 
or something of that sort. You are getting tremendous resource 
magnification of the investments. Has the Park Service 
considered that factor in its deliberations?
    Mr. Smith. Congressman, it has. Part of our rationale is 
that with the 208 acres of the 366 actually being a unit of the 
System, that is about a million dollars a year, 14 FTE. So we 
have a tremendous presence there. And at this time we are aware 
there are certain appropriations that are moving through DOD 
because of your Active components of military that are there 
and that type of thing.
    So, at this time I would have to say we do--I try to 
recognize that, that we do realize this is a very valuable 
partnership. But at this particular time right now, the 
Department, because of its other budget constraints, needs to 
step back and not be a participant at the level that this bill 
has asked us to participate in.
    Mr. Baird. Just for the record, Mr. Chair, obviously I 
disagree with that conclusion and would note that I think that 
it--the other emphasis I would make is that there are 
relatively no other, that I know of, comparably important 
historical sites in this particular vicinity. Indeed, the first 
U.S. Army post in the Pacific Northwest was established there. 
There is--as you know for sure, there is a wonderful--young 
people can come visit a fort that was the first fort in the 
Pacific Northwest. This is where important treaties were 
signed. This is where basically the U.S. established its formal 
presence in the Pacific Northwest with a military presence. It 
is a tremendously rich history, and I hope we can foresee and 
make possible further expansion. This fort has been active in 
the military for years.
    The other thing I think to emphasize that wasn't mentioned 
in the testimony: When the original $5 million authorization 
was established, there was a more constrained geographical 
area. The Army is making--is departing from what is called the 
west barracks part of this, which is an historical area of 
buildings which I understand are relatively unparalleled in 
terms of their era of construction, et cetera. And it is that 
addition of the new property which expands the need for 
additional authorization for this resource so that we can 
maintain it and keep it up to the standards that it warrants.
    Mr. Radanovich. Thank you, Mr. Baird.
    Mr. Otter?
    Mr. Otter. Thank you, Mr. Chairman.
    Mr. Anderson, you are very familiar now with the Spirit 
Lake, Twin Lakes problem that we have got. Is this something 
that is unique for the BLM, for the Department of Interior?
    Mr. Robert Anderson. No, sir, it isn't, although I don't 
know how many cases specifically we have on bidded lands. We 
had a couple of cases around Jackson Hole, Wyoming, for 
example, along the Snake River back in the 1970's and 1980's, 
which ended up in court with high litigation costs, and 
eventually ruled in favor of the landowners in terms of the 
land obtained from the government. But we--this is not a 
frequent occurrence.
    Mr. Otter. Thank you.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Otter.
    Mr. Smith, I do have one question regarding H.R. 3917. Can 
you tell me how the National Park Service envisions working 
with the advisory council on the development of this memorial?
    Mr. Smith. Mr. Chairman, what we hope to do is to work as 
the legislation gives us direction to use the existing task 
force that is already existing for Flight 93, and, as the 
Secretary forms the commission, to take all of the advice that 
this existing task force provides. Among other things, that 
task force will actually recommend 14 members of what the 
commission that the Secretary will form will consist of.
    We haven't done a study on this area, Mr. Chairman, but the 
Park Service has had literally probably more than a dozen 
individuals, professional staff, to the site, have talked to 
the local people, have talked to local government, the State 
government, and there is a tremendous feeling of coordination 
to move forward with input from the people directly affected by 
this, especially the families of those who were lost on this 
flight. And we perceive it being a very smooth transition from 
this task force into a commission to get an awful lot of 
consensus before we ever move forward to what will eventually 
be at this site.
    Mr. Radanovich. Thank you.
    Mr. Smith, there was a reconnaissance and analysis of this 
site done by National Park Service already? Am I--
    Mr. Smith. Yes, sir.
    Mr. Radanovich. --saying that?
    Mr. Smith. On several visits, just because of the 
importance of this, we have actually had land acquisition 
people out there. We have had planners. They have brought staff 
who dealt directly with the Oklahoma City memorial who went 
through sort of the same very quick process--appropriate 
process, but nonetheless quick, a full understanding of what 
this rural area can and cannot do, working closely with the 
mayor. It really has been an outpouring of professional advice 
and consultation that has moved into a real awareness of what 
this local area is trying to accomplish. And in that regard, 
our people have gathered an awful lot of information that will 
help us move forward from the task force and into this 
commission that will eventually advise the Secretary on what 
should occur at this site.
    Everyone is in agreement that what happened in this rural 
land in Pennsylvania needs to be commemorated, and we think we 
can build a consensus with all of these interested parties to 
accomplish this if Congress does enact it into law.
    Mr. Radanovich. Thank you very much.
    One other question regarding Mr. Baird's bill. Is the 
Vancouver National Historic Reserve, is it a unit of the 
National Park System?
    Mr. Smith. The actual Fort Vancouver, 208 of these 366 
acres which are in the reserve is a national historic site and 
a unit of the Park System.
    Mr. Radanovich. OK.
    Mr. Smith. So about 160 plus or minus are the actual 
reserve; the actual Fort Vancouver itself, national historic 
site, is a unit of the System.
    Mr. Radanovich. And the reason for the jump in authorized 
spending from 5 to 20 million in 6 years is because of what?
    Mr. Smith. It is because of things located on the site, as 
the Congressman talked about, the barracks, which may or may 
not--I kind of have conflicting information on whether that 
will actually be used by Reserve components in the BRAC 
process. People are coming back to where they might not have 
been before, but to improve these very historic buildings on 
the national historic site, but then also other considerations 
the city has with its education portion and its actual 
riverfront.
    Mr. Radanovich. I will yield to you in just a second, but 
one other question.
    The cooperative management plan, is that an actual budget 
document of the National Park Service, or is this done by 
somebody else?
    Mr. Smith. It is a planning document, Congressman. It is 
not a budget document.
    Mr. Radanovich. All right. Mr. Baird, I would be happy to 
yield.
    Mr. Baird. Just to explain, if I may. Envision, if you 
will, a field in which sits an old stockade-style fort, which 
we are all familiar with the parapets and whatnot, lodge poles 
and things like that. Then up the hill from that, you have the 
barracks of the more modern military, which have now been 
vacated. But these are barracks that served from the World War 
II and before era. Further along there are barracks or what we 
call Officers Row, which were not barracks, but were the 
officers' buildings in a classic, almost colonial style, in 
which, for example, Ulysses S. Grant, Sheridan, McClellan, and 
General George C. Marshall resided. And also up the field a 
ways from the historic fort itself, you have Pearson Air Field 
in which the first transpolar flight, the Chkalov Russian 
flight, came overseas or over the North Pole.
    So it is a very unique and integrated area in which you 
have a replica of the very first military fort originally 
established by Hudson's Bay Company, then occupied later on, on 
up through modern military times.
    So that is what we see as unique. In fact, a slogan for the 
Historic Reserve has been One Place Across Time, where you can 
really follow the transition of the U.S. military presence in 
the Pacific Northwest from its earliest days up to modern 
times. And it is that which we are seeking to preserve in this 
additional authorization. And that is the more--the 20th 
century, the mid to 20th century barracks, which, frankly, are 
in some state of disrepair, and yet it is the responsibility of 
the reserve area to take care of.
    Mr. Radanovich. Right. Thank you.
    Any other questions of the panel?
    Mr. Anderson, I want to thank you. Mr. Smith, thank you 
very much for coming to testify today.
    Mr. Radanovich. We will go ahead and call up our third 
panel, which includes the Honorable Royce Pollard, who is the 
mayor of the city of Vancouver, Vancouver, Washington, here to 
speak on 2099; Mr. Bruce Hagensen, board member of the 
Vancouver National Historic Reserve Trust, Vancouver, 
Washington, again on H.R. 2099; Mrs. Pam Tokar-Ickes, Somerset 
County Commissioner, Somerset, Pennsylvania, to speak on H.R. 
3917; Mrs. Betty Kemmerer, Flight 93 Family Organization 
representative from Budd Lake, New Jersey, on 3917; and Mr. 
Bruce Anderson, who is a land surveyor at Kootenai County in 
Coeur d'Alene, Idaho, H.R. 4874.
    Thank you very much for being here. I hope I didn't 
mispronounce anybody's name. You see this name? It gets 
mispronounced a lot.
    We will go ahead and start. Everybody has 5 minutes to 
offer their testimony. We are going to go with everybody, and 
then open up the panel to questions from other members.
    Mr. Pollard, welcome to the Committee, and please begin 
your testimony.

              STATEMENT OF ROYCE POLLARD, MAYOR, 
            CITY OF VANCOUVER, VANCOUVER, WASHINGTON

    Mr. Pollard. Thank you. Good afternoon, Mr. Chairman, and 
members of the Subcommittee. I am Royce Pollard, the mayor of 
America's Vancouver in Washington State. Thank you for this 
opportunity to testify on behalf of House Resolution 2099.
    First off, for those who may not know about America's 
Vancouver, we are not located in Canada. We are the fourth 
largest city in the State of Washington and are located on the 
north bank of the Columbia River. I could go on about the many 
wonderful virtues of our city and community, but for today I 
will focus my discussion with you on the historic reserve.
    Few places in America can match the layers of historic 
assets of the Vancouver National Historic Reserve. I believe 
the Vancouver National Historic Reserve will become one of our 
Nation's premier historic sites. The historic reserve played a 
significant role in the events that shaped the history of the 
West and the Pacific Northwest, from the Indian Nations that 
were long established by the time Lewis and Clark visited our 
shores and declared, and I quote, the only desirable situation 
for a settlement on the western side of the Rocky Mountains, 
unquote, to the Hudson's Bay Company and the fur and trade 
monopoly of the British Empire. It all happened here.
    The 366-acre reserve is located right in the heart of our 
downtown core. It is comprised of Officers Row, the barracks, 
Pearson Air Field, and Fort Vancouver National Historic Site. 
Its southern boundary is the mighty Columbia River. The 
Hudson's Bay Company established its Western fur trade 
headquarters along the Columbia in the 1820's at Fort Vancouver 
and, as a result, greatly influenced the economic, political, 
and cultural developments in the Pacific Northwest. Fort 
Vancouver emerged as the most multicultural and diverse 
community in the West, with close to 1,000 people, made up of 
French Canadians, Hawaiians, Scots, and members of over 30 
different American Indian tribes, calling the reserve home.
    The historic area, and particularly Fort Vancouver, is now 
considered the premier historical archaeological site in the 
Pacific Northwest with a collection of 1.5 million artifacts 
used by researchers and visitors around the world.
    The emergence of Vancouver Barracks as the first U.S. Army 
post in the Pacific Northwest in May of 1849 determined the 
boundaries of the United States, adding the territory that 
would become Idaho, Washington and Oregon. The barracks was the 
headquarters for the Department of Columbia, and, as mentioned, 
many famous soldiers have lived and served there, including 
Captain Ulysses S. Grant, George McClellan, Philip Sheridan, 
General Oliver Otis Howard, and General George C. Marshall, the 
architect of victory in World War II and the Nobel Peace Prize 
recipient for the Marshall Plan.
    From the 19th through the 21st centuries, this post 
continued a rich tradition of military service with soldiers 
serving in the Indian wars, the Philippine war, and both World 
Wars. Officers Row, which served as residential housing for 
many of the soldiers' and officers' families stationed at 
Vancouver Barracks, has been beautifully restored and 
rehabilitated and is one of our city's signature assets and is 
the oldest neighborhood in the Pacific Northwest. The Reserve 
is also home to the oldest, continuously operated air field in 
the country, Pearson Air Field.
    As mentioned, in 1937, a Soviet aviator and his crew landed 
there at the end of history's first nonstop transpolar flight. 
They were welcomed to America by the commander of the barracks, 
General George C. Marshall.
    As you can tell by my brief history, the historic reserve 
is of national and international significance and is an 
American gem. While I can tell you more about the reserve's 
historical significance than you would ever want to know, my 
main purpose is to urge you to support this increase in 
appropriations so we can preserve, maintain, and reuse this 
valuable piece of our 5nation's history.
    Many things have changed and happened since 1996 when you 
passed legislation creating the four partnerships. The 
nonprofit Vancouver National Historic Reserve Trust was created 
and supports the reserve by bringing private resources into the 
partnership.
    In the year 2000, the Army vacated the west barracks, and 
later that year former President Clinton signed the Defense 
Authorization Act which would allow the transfer of the 
barracks to the city of Vancouver. Our delegation, led by 
Congressman Baird, Norm Dicks, and Senators Murray and 
Cantwell, have pledged to secure additional authorizations for 
the reserve. We expect the Army to provide financial support as 
well. The Trust has pledged to raise 20 percent of needed 
funding to establish a permanent endowment for the reserve. We 
are asking the State of Washington to match the city's 
contribution of 15 percent. Federal funding will leverage local 
and State public funding and private contributions. Without 
adequate Federal funding, the city will not be in a financial 
situation to accept transfer of the west barracks from the 
Army. In that event, the Federal Government would remain 
responsible for maintaining and protecting the property in 
accordance with statutory historic preservation requirements.
    Much needs to be done to restore and preserve the buildings 
of this site to achieve our community's vision of turning them 
into classrooms, museums, and interpretive spaces. The scope of 
this project is beyond our local resources, both public and 
private. Because of the national significance of this site, we 
feel that it is critical it be preserved and interpreted for 
future generations. We have a once-in-a-lifetime opportunity to 
connect millions of people to our Nation's heritage and its 
legacies of cultures, commerce, and politics. Given the scope 
of this project, success will be realized only through the 
cooperative support and participation of all of our partners. 
We are presented with an opportunity to create a model public/
private partnership. The city of Vancouver is absolutely 
committed to the success of this unique preservation 
initiative, and I urge your support for this resolution.
    In summary, America's Vancouver is the birthplace of 
history in the Pacific Northwest. By working together in a true 
public/private partnership, we will create a historic 
destination of national and international significance that 
will attract millions of visitors, making you and our Nation 
proud of our partnership's efforts.
    Thank you very much for this opportunity.
    Mr. Radanovich. Thank you very much, Mr. Pollard.
    [The prepared statement of Mr. Pollard follows:]

          Statement of The Honorable Royce E. Pollard, Mayor, 
                     City of Vancouver, Washington

    Good afternoon Mr. Chairman and members of the Subcommittee on 
National Parks, Recreation and Public Lands. My name is Royce Pollard, 
Mayor of Vancouver, Washington. Thank you for this opportunity to 
testify on behalf of House Resolution 2099, amending the Omnibus Parks 
and Public Lands Management Act of 1996 to provide adequate funding 
authorization for the Vancouver National Historic Reserve.
    First off, for those of you who may not know about Vancouver, we 
are the fourth largest city in the state of Washington and are located 
on the north bank of the Columbia River directly across from Portland, 
Oregon. I could go on about the many wonderful virtues about our city 
and community, but for today, I will focus my discussion with you on 
the Reserve.
    Few places in our country can match the historic assets of the 
Vancouver National Historic Reserve. You all know about Colonial 
Williamsburg. Well, we think the Reserve can be the Williamsburg of the 
west. We know the Reserve has the potential to be as intriguing, as 
interesting and as much of a destination as Williamsburg is. We want 
the Reserve to be one of our nation's premiere historic sites.
    The Historic Reserve played a significant role in the events that 
shaped the history of the west and the Pacific Northwest--from the 
Indian Nations that were long-established by the time Lewis and Clark 
visited our shores, to the fur and trade monopoly of the British Empire 
it all happened right here.
    The Reserve, designated by Congress in 1996, has been recognized as 
the most historically significant site in the Pacific Northwest. The 
Historic Reserve's cultural resources encompass successive layers that 
reflect major themes in the nation's history pre-dating the arrival of 
Lewis and Clark through the mid-20th century. Highlights of this 
layered history include:
    <bullet> Early Native American inhabitants of the area
    <bullet> Lewis and Clark expedition in 1805 06
    <bullet> Hudson's Bay Company headquarters operations at Fort 
Vancouver
    <bullet> 150 years of U.S. Army history at Vancouver Barracks, the 
Northwest's military administrative headquarters beginning in 1849
    <bullet> ``Golden Era of Aviation'' at Pearson Field 1920s-1930s, 
one of the U.S. Army's oldest airfields
    <bullet> Officers Row (honoring such notables as Ulysses S. Grant, 
O.O. Howard, and George C. Marshall)
    <bullet> Columbia River, one of the world's great waterways, an 
artery of commerce and productivity from the prehistoric era to the 
present
    The 366-acre Reserve boasts a unique, urban location right in the 
heart of our downtown core. It is comprised of Officer's Row, Vancouver 
Barracks, Pearson Field and Fort Vancouver. Its southern border is the 
mighty Columbia River. As many of you know, the Columbia River has long 
enticed Native Americans, explorers, workers, traders, soldiers, and 
settlers to its shores. Indigenous peoples fished and settled along its 
banks and tributaries. The Hudson's Bay Company established its western 
fur trade headquarters along the Columbia at Fort Vancouver and, as a 
result, greatly influenced the economic, political, and cultural 
development of the Pacific Northwest. Fort Vancouver emerged as the 
most multi-cultural and diverse community in the west with close to a 
1,000 people, made up of French-Canadians, Hawaiians, Scots, and 
members of over 30 different American Indian tribes, calling the 
Reserve home. Thousands of American settlers emigrated over the Oregon 
Trail and arrived at Fort Vancouver in desperate need of supplies and 
assistance. The birth of what is today the Pacific Northwest was made 
possible by the generosity provided to these settlers by the villagers 
at Fort Vancouver.
    Fort Vancouver is now considered the premiere historical 
archaeological site in the Pacific Northwest. Over 50 years of 
excavations have resulted in a collection of 1.5 million artifacts used 
by researchers and visitors from around the world.
    Along with the settlement of these Oregon Trail pioneers, the 
emergence of Vancouver Barracks as the first U.S. Army post in the 
Pacific Northwest determined the boundaries of the United States, 
adding the territory that would become Idaho, Washington and Oregon.
    The Barracks was the headquarters for the Department of the 
Columbia and many ``famous'' soldiers including Ulysses S. Grant, 
George McClellan, Philip Sheridan, O.O. Howard and George C. Marshall 
were stationed here at some point in their careers. From the 19th 
through the 21st centuries, this post continued a rich tradition of 
military service. Soldiers served in the Indian Wars, the Philippines, 
and both World Wars. In 1917, the U.S. Army operated the world's 
largest spruce mill on this site, providing lumber for the manufacture 
of biplanes during World War I.
    Officer's Row, which served as residential housing for many of the 
soldiers, officers and families stationed at Vancouver Barracks has 
been beautifully restored and rehabilitated. Once described as ``21 
white elephants nose to tail'', today, the stately tree-lined row is 
pointed to with pride as one of our city's signature assets.
    Last, but not least, the Reserve is also home to the oldest 
continuously-operated airport in the county, Pearson Field. From 1923 
to 1941, Pearson was home to the U.S. Army Air Service and many key 
events during the ``Golden Age of Flight.'' One of its first commanders 
made the first non-stop transcontinental flight in 1923. In 1937, a 
Soviet aviator and crew landed there at the end of history's first non- 
stop, trans-polar flight.
    As you can tell by my brief history lesson, the Reserve is a 
historic gem. Both Fort Vancouver and Officer's Row are listed on the 
National Register. Vancouver Barracks and Pearson Field are eligible 
for listing on the Register as well.
    While I can tell you more about the Reserve's historical 
significance, my main purpose is to urge you to support this increase 
in appropriations so we can preserve, maintain, and reuse this valuable 
piece of our nation's history.
    When Congress passed legislation establishing the Vancouver 
National Historic Reserve, the designation set forth a partnership 
among the four landowners in the Reserve the National Park Service, the 
City of Vancouver, the U.S. Army and the Washington State Office of 
Historic Preservation. The non-profit Vancouver National Historic 
Reserve Trust supports the Reserve by bringing private resources into 
the partnership.
Key Congressional Actions
    Congressional involvement in the Reserve goes back to 1948.
    <bullet> Fort Vancouver National Monument Establishment of Fort 
Vancouver National Monument in Vancouver, Washington; transfer of lands 
by War Assets Administration and Secretary of the Army to Secretary of 
the Interior authorized, (62 Stat. 532) June 19, 1948
    <bullet> Fort Vancouver National Historic Site Fort Vancouver 
National Monument authorization to increase boundaries revised and 
monument re-designated as ``Fort Vancouver National Historic Site,'' 
June 30, 1961 (75 Stat. 196)
    <bullet> National Historic Preservation Act, 1966 Establishes a 
program for the preservation of historic properties throughout the 
Nation and, in section 106, identifies governmental obligations. 16 
U.S.C. 470; P L 89-665 October 15, 1966 as amended through 1992 by P L 
102-575.
    <bullet> Vancouver Historical Study Commission Established the 
Vancouver Historical Study Commission for the purpose of evaluating 
resources in the area and determining the feasibility of creating a 
Vancouver National Historic Reserve, P L 101-523, November 5, 1990
    <bullet> Vancouver National Historic Reserve Legislation 
establishing the Vancouver National Historic Reserve as defined in the 
Feasibility Study and Environmental Assessment, by the Vancouver 
Historical Study Commission, 1993. Required a General Management Plan 
to be completed no later than three years after the Act. This plan was 
to be developed by a Partnership team consisting of one representative 
from each of the following organizations: the National Park Service, 
Historic Preservation Office of the State of Washington, the Department 
of the Army and the city of Vancouver, P L 104-333, Sec. 502, November 
12, 1996
    <bullet> West Barracks Transfer Authority 2000 Legislation 
provides for transfer of the west Vancouver Barracks property to the 
city of Vancouver. Allows the Secretary of the Army to approve the 
transfer presently scheduled for mid 2002.

RATIONALE FOR FEDERAL FUNDING REQUEST
    The request for $20 million of Federal funding to assist in the 
preservation and reuse of the Reserve is partially based on principle 
and partially based on the financial benefits derived from the public/
private partnership proposed by the city of Vancouver and the Reserve 
Trust.
    There are two fundamental principles underlying the funding 
request:

Principles
    1. Historic Preservation. The U.S. Government has an obligation to 
assist in the preservation of one of the nations important historic 
sites first recognized by the designation of the Fort Vancouver 
National Monument in 1948. (renamed in 1961 as the Fort Vancouver 
National Historic Site) and the establishment of the Vancouver National 
Historic Reserve in 1996.
    2. Conversion of Military Bases. The U.S. Government has an 
obligation to assist in the conversion of no longer needed military 
bases to non-military purposes.

Financial Benefits
    1. Federal funding will leverage local and state public funding and 
private contributions. The Federal Government share is proposed at 37% 
of the total project cost. The Federal money would be used primarily to 
rehabilitate the buildings to a level of compliance with public safety 
codes and applicable Federal laws such as ADA. Some Federal money would 
also be used to preserve the important historical features of the site 
and buildings. (For example, use of ``Save America's Treasures funds to 
preserve the Red Cross Convalescent House already designated as an 
America's Treasure.)
    2. An early commitment of funding would enable the redevelopment to 
proceed at a more rapid pace resulting in substantial cost savings.
    3. Without adequate Federal funding for the barracks project, the 
city would not be in a financial position to accept transfer of the 
west barracks. In this event, the Federal Government would remain 
responsible for maintaining and protecting the property in accordance 
with statutory historic preservation requirements. In addition, the 
Federal Government would likely be faced with rebuilding old 
deteriorated infrastructure in the near future.

REQUESTED CONGRESSIONAL ACTIONS
    The City of Vancouver, its partners, and the Reserve Trust are 
grateful for the recent and ongoing efforts by our Congressional 
delegation in support of the Vancouver National Historic Reserve. Our 
Congressional delegation led by Congressmen Brian Baird and Norm Dicks 
and Senators Patty Murray and Maria Cantwell, have pledged to secure an 
additional authorization for the Reserve. We expect the U.S. Army to 
provide financial support as well.
FY 2003 request for the Reserve:
    Pass legislation providing an additional multi-million dollar 
Federal ``authorization'' for capital projects at the Reserve. (The $5 
million `cap' for capital projects included in the 1996 legislation 
creating the Reserve. has now been exceeded; this year's Interior 
earmark was accompanied by a caveat that future appropriations for 
capital projects at the VNHR would require a lift of the lid). Senators 
Cantwell and Murray have introduced S 1649 and a companion measure H.R. 
2099, has been introduced by Congressman Baird. Due to the specific 
language in this year's Interior Conference Committee report, passage 
of this legislation is critical.
    The Trust has pledged to raise 20% of needed funding to establish a 
permanent endowment for the Reserve. We are asking the State of 
Washington to match the city's contribution of 15%.

CLOSING STATEMENT
    Much needs to be done to restore and preserve the buildings on this 
site to make the community's visions of turning them into to the 
classrooms, museums, or interpretive space a reality. The scope of this 
project is beyond our local resources, both public and private. Because 
of the national significance of this site, we feel that it is critical 
it be preserved and interpreted for future generations. To accomplish 
this, assistance from the Federal Government is crucial. This is an 
amazing, once-in-a-lifetime opportunity to connect millions of people 
to our nation's heritage and its legacy of cultures, commerce and 
politics. Given the scope of this project, success will be realized 
only through the cooperative support and participation of all our 
partners. We are presented with an opportunity to create a model 
public/private partnership. The City of Vancouver is committed to the 
success of this unique preservation initiative. I urge your support of 
this resolution.
    Thank you for your consideration of this request. I would be happy 
to respond to any questions you may have.
                                 ______
                                 
    [Attachments to Mr. Pollard's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T0550.009
    
    [GRAPHIC] [TIFF OMITTED] T0550.010
    
    [GRAPHIC] [TIFF OMITTED] T0550.011
    
    [GRAPHIC] [TIFF OMITTED] T0550.012
    
    [GRAPHIC] [TIFF OMITTED] T0550.013
    
    [GRAPHIC] [TIFF OMITTED] T0550.014
    
    [GRAPHIC] [TIFF OMITTED] T0550.015
    
                                ------                                

    Mr. Radanovich. Next is Ms. Pam Tokar-Ickes. And, Pam, I 
hope I have gotten your name right. Welcome to the Committee, 
And take your time to ready yourself.
    Ms. Tokar-Ickes. Thank you very much.
    Mr. Radanovich. But when you are ready, please.

  STATEMENT OF PAM TOKAR-ICKES, SOMERSET COUNTY COMMISSIONER, 
                     SOMERSET, PENNSYLVANIA

    Ms. Tokar-Ickes. It is close.
    Good afternoon, Chairman Radanovich and esteemed members of 
the Subcommittee. I am Somerset County Commissioner Pamela 
Tokar-Ickes, and, on behalf of my colleagues James Marker and 
Brad Cober and the residents of Somerset County, I wish to 
express our strong support for House bill 3917 introduced by 
Congressman John Murtha as an appropriate and a fitting means 
to forever honor the legacy of the passengers and crew members 
of United Airlines Flight 93.
    As I testify before you today, I can assure you that the 
events of September 11th have done nothing but strongly 
reinforce my personal belief that history is not the domain of 
academics; it belongs to us all, because we have not only been 
witness to a literal turning point in our Nation's history, 
every man, woman, and child who will have recall of those 
events profoundly experienced them. It may be recorded by 
scholars, but the history of September 11th is being written by 
us all. That date has entered our collective imagination as one 
of those moments you will never forget, one that for many has 
not been experienced since November 22nd, 1963.
    I am 40 years old, and I can't tell you what I was doing 
when President Kennedy was shot because I was only 2, but I 
will never forget the blur of events during those fateful 2-1/2 
hours on what began as a beautiful, crisp autumn morning that 
changed our Nation, our world, and Somerset County.
    At about 10:10 a.m., with the knowledge of the planes 
hitting the World Trade Center towers and the Pentagon, the 
Somerset County Commissioners were preparing for our biweekly 
public meeting when we received a call from our emergency 
operations center. The exact words of our emergency management 
director were, ``We have a report of a jetliner down in 
Buckstown. It's big. This is the real thing, guys.'' And I 
remember looking at my other commissioners, fellow 
commissioners, in stunned disbelief and saying to the 
speakerphone, ``Our Buckstown?'' the reply: ``yes, Buckstown, 
Pennsylvania, and there are 400 on board.''
    From there we just responded, determining shortly 
thereafter that there were only several dozen people on board, 
but we would not know until much later in the day that the 
crash in that remote field was linked in any way to the events 
in New York City and Washington, D.C.; we just responded.
    And then in the days to follow came the stories from family 
members, telephone operators, and emergency dispatchers about a 
series of phone calls that came from the individuals on that 
plane, and the eyewitness accounts of residents throughout 
western Pennsylvania who had noticed the low-flying and 
wavering jetliner in its final moments. And piece by piece the 
puzzle came together, and we soon realized that the smoldering 
crater in an abandoned strip mine in Stonycreek Township marked 
more than the scarred earth of a plane crash. It cradled the 
remains of individuals who exemplified the highest of human 
ideals; and that, whether by fate or destiny, Somerset County, 
Pennsylvania, holds a unique place in American history linked 
forever to one of the most poignant and valiant acts in its 
pages.
    We have become the caretaker of the story of these 
seemingly ordinary people who unknowingly, when they boarded 
United Airlines Flight 93 in Newark, New Jersey, on that 
beautiful day, were to become the Nation's first civilian 
soldiers to fight the first battle in what we now know as the 
war against international terrorism. What a huge responsibility 
we now shoulder for not only their survivors, but for the 
generations who will follow.
    As the enormity and the reality of the events began to set 
into the Nation, the Office of the County Commissioners of 
Somerset County was inundated with calls and donations and 
letters from throughout the world imploring us to establish 
some type of a permanent memorial to the 40 passengers and crew 
members of Flight 93. And I will tell you, those calls began as 
early as September 12th, when most of the country--I would say 
most of the world--was simply trying to wrap its mind around 
what had happened. There were letters from Cub Scout groups who 
held car washes and children who emptied their piggy banks. One 
woman sent $300 she has earmarked for Christmas shopping at the 
request of her children. Another wrote that enclosed in her 
card was the very first check her 14-year-old daughter had ever 
written, and she signed it simply, ``A proud mom.'' a senior 
citizen sent $2. ``Not much,'' she said, ``but from the 
heart.'' corporations called telling us that they were setting 
aside hundreds of thousands of dollars in endowment funds that 
would be available when we were ready. To date, more than $1 
million has been committed, and that number reflects only 
unsolicited contributions with, I have no doubt, millions more 
available for the asking.
    And then came the ideas, literally hundreds, scribbled on 
the backs of napkins and scraps of paper, intricate drawings 
that were carefully sketched by their creators after 
inspirational moments or dreams. Architectural firms 
commissioned professional designers and artists to produce 
their own renderings and offered their services free of charge.
    What was most extraordinary, though, was what began to 
occur almost immediately near the impact site. Temporary 
memorials sprung up as close as people could get, even as the 
recovery efforts continued. They brought flowers and pictures 
and letters and quilts and patches and angels, even a flight 
attendant's uniform; but they did not come to see that crash 
site as voyeurs, they came on more of a pilgrimage seemingly 
drawn there by need to simply get close to the place where this 
event occurred. As the professional historians would soon tell 
us, it is a phenomenon referred to as the power of place, and 
they still come daily, sometimes by the hundreds, just to pay 
their respects and see firsthand how this story which belongs 
to us all began.
    The items they bring now fill two entire rooms of the 
Somerset Historical Center, the home of the Historical and 
Genealogical Society of Somerset County which has been 
appointed by the county to collect, catalog, and archive the 
artifacts that are being left behind, which, individually and 
collectively, have also become an important part of the 
historic record.
    Last December, in response to the groundswell of support 
for the creation of a permanent memorial, a town meeting was 
held in Shanksville in which those who participated identified 
key stakeholder groups that must be represented on this soon-
to-be-appointed Flight 93 task force. In addition to every 
family member that wishes to participate, they told us that the 
task force must include representatives of the community, 
emergency responders, educators, veterans, and historians.
    In January, the Somerset County Commissioners formally 
requested that Congressman John Murtha introduce legislation 
that would create a national memorial to the passengers and 
crew members of United Airlines Flight 93 under the auspices of 
the National Park Service, the Nation's curator, to ensure its 
proper administration long after all who now remember are gone.
    At a meeting in February, surviving family members 
representing 37 of the 40 individuals who perished on Flight 93 
reached strong consensus that a permanent memorial should be 
constructed. The second question they were asked to answer is, 
where should the permanent memorial be sited? The location, 
they said, had been selected on September 11th when, after the 
fateful struggle in the skies over Pennsylvania, their loved 
ones reached their final resting place. As Jennifer Price, a 
young woman who lost both of her parents on that plane, so 
eloquently told those who gathered at the National Press Club 
last March when the legislation was publicly announced, ``It is 
the place where we will go to say hello and good-bye.''
    House bill 3917, the Flight 93 National Memorial Act, will 
ensure that the crash site of Flight 93 is held in perpetuity 
with the dignity and the honor it deserves. The legislation 
provides a unique framework that will meld the grassroots input 
of the Flight 93 task force with the necessary support and 
oversight provided by the Federal Flight 93 Advisory Commission 
to make a national memorial a reality. And although the members 
of the advisory commission will be appointed by the Secretary 
of the Interior, the bill specifies that those appointments 
come from recommendations of the local Flight 93 task force, 
ensuring that the voices of the families and the community 
where this crash occurred remain central to the memorial 
process.
    Although the story of Flight 93 is significant to our 
Nation's history, its importance in no way diminishes the 
sacrifice of those who died at the World Trade Center towers 
and the Pentagon, but what happened over the skies of western 
Pennsylvania was different. Forty individuals, our newest 
American patriots, who count among their ranks nationals from 
Japan, Puerto Rico, and Germany, fought to overtake the plane, 
and, in so doing, gave their lives to save countless others. It 
is their courage that flamed the fires of freedom in the shadow 
of September 11th and served to inspire a Nation that so 
desperately needed to find its way out of the darkness.
    On behalf of the community that now cradles them as its 
own, the county in which they find their perpetual rest, the 
State to which their destiny was linked, and the country for 
which they died to defend, I respectfully ask the members of 
this Subcommittee and the Congress of the United States to 
honor these extraordinary individuals and their families so 
that their sacrifice will be remembered for generations to 
come. Thank you.
    Mr. Radanovich. Thank you very much. I know it is tough to 
go back to the memories of that day; I think it is pretty tough 
for a lot of people.
    [The prepared statement of Ms. Tokar-Ickes follows:]

            Statement of Pamela Tokar-Ickes, Commissioner, 
                     Somerset County, Pennsylvania

    Good afternoon Chairman Radanovich and esteemed members of the 
Subcommittee. I am Somerset County Commissioner Pamela Tokar-Ickes and 
on behalf of my colleagues James Marker and Brad Cober, and the 
residents of Somerset County, I wish to express our strong support for 
House Bill 3917, introduced by Congressman John Murtha, as an 
appropriate and fitting means to forever honor the legacy of the 
passengers and crew members of United Airlines Flight 93.
    As I testify before you today, I can assure you that the events of 
September 11th have done nothing but strongly reinforce my personal 
belief that history is not the domain of academics, it belongs to us 
all. Because we have not only been witness to a literal turning point 
in our nation's history- every man, woman and child who will have 
recall of those events profoundly experienced them. It may be recorded 
by scholars, but the history of September 11th is being written by us 
all. That date has entered our collective imagination as one of those 
moments you will never forget, one that for many has not been 
experienced since November 22nd, 1963. I am forty years old, and I 
cannot tell you what I was doing when President Kennedy was shot 
because I was only two, but I will never forget the blur of events 
during those fateful two and half hours on what began as a beautiful, 
crisp autumn morning that changed our nation, our world, and Somerset 
County.
    At about 10:10 a.m. with the knowledge of the planes hitting the 
World Trade Center Towers and the Pentagon, the Somerset County 
Commissioners were preparing for our bi-weekly public meeting, when we 
received a call from our emergency operations center. The exact words 
of our emergency management director were, ``We have a report of a 
jetliner down in Buckstown. It's big. This is the real thing guys.'' I 
remember looking at the other Commissioners in stunned disbelief and 
saying to the speakerphone, ``Our Buckstown?'' The reply, ``Yes, 
Buckstown, Pennsylvania. They think there are 400 on board.''
    From there, we just responded, determining shortly thereafter that 
there were only several dozen people on board. But we would not know 
until much later in the day that the crash in that remote field was 
linked in any way to the events in New York City and Washington, DC. We 
just responded.
    And then, in the days to follow, came the stories from family 
members, telephone operators, and emergency dispatchers, about a series 
of phone calls that came from the individuals on that plane. And the 
eyewitness accounts of residents throughout Western Pennsylvania who 
had noticed the low flying and wavering jetliner in its final moments. 
Piece by piece the puzzle came together and we soon realized that the 
smoldering crater in an abandoned strip mine in Stonycreek Township, 
marked more that the scarred earth of a plane crash. It cradled the 
remains of individuals who exemplified the highest of human ideals. And 
that whether by fate or destiny, Somerset County, Pennsylvania holds a 
unique place in American history, linked forever to one of the most 
poignant and valiant acts in its pages.
    We have become the caretakers of the story of these seemingly 
ordinary people who, unknowingly when they boarded United Airlines 
Flight 93 in Newark, New Jersey on that beautiful day, were to become 
the nation's first civilian soldiers, to fight the first battle in what 
we now know as the war against international terrorism. What a huge 
responsibility we now shoulder for not only their survivors, but for 
the generations who will follow.
    As the enormity and reality of the events began to set into the 
nation, the Office of the Somerset County Commissioners was inundated 
with calls and donations and letters from throughout the world, 
imploring us to establish some type of permanent memorial to the 40 
passengers and crewmembers of Flight 93. Those calls began as early as 
September 12th, when most of the country, most of the world, was simply 
trying to wrap its mind around what had happened.
    There were letters from Cub Scout groups who held car washes, and 
children who emptied their piggy banks. One woman sent three hundred 
dollars she had earmarked for Christmas shopping- at the request of her 
children. Another wrote that enclosed in her card was the first check 
her 14-year old daughter had ever written, and signed it simply, ``A 
proud mom''. A senior citizen sent two dollars, ``not much,'' she said, 
but ``from the heart''. Corporations called telling us that they were 
setting aside hundreds of thousands of dollars in endowment funds that 
would be available when we were ready. To date, more than one million 
dollars has been committed. That number reflects the unsolicited 
contributions, with I have no doubt, millions more available for the 
asking.
    And then came the ideas, literally hundreds. Scribbled on the backs 
of napkins and scraps of paper, intricate drawings that were carefully 
sketched by their creators after inspirational moments or dreams. 
Architectural firms who commissioned professional designers and artists 
to produce their own renderings and offered their services free of 
charge.
    A man named Herbert from Guatemala, who called to tell me he was 
having a marble plaque designed and shipped at his own expense, and 
asked if I could guarantee that it would be used for the memorial. I 
told him that I could not, but I promised I would personally see it was 
sent to the site and kept until further decisions were made. I did not 
hear from Herbert again until two months ago when he called to tell me 
he didn't forget about his promise, he simply didn't like the first 
plaque and had it redone, this time in green marble with gold embossed 
lettering. A 70-pound crate arrived in my office later that week, and 
was, as promised, taken to the temporary memorial. Herbert called again 
to see if we liked the plaque and said simply ``Thank you, I needed to 
hear that,'' when I told him it was beautiful, and then, he hung up.
    What was most extraordinary though was what began to occur almost 
immediately near the impact site. Temporary memorials sprung up as 
close as people could get, even as recovery efforts continued. They 
brought flowers and pictures and letters, and quilts and patches and 
angels, even a flight attendants uniform. But they did not come to see 
the crash site as voyeurs; they came on more of a pilgrimage, seemingly 
drawn there by need. To simply get close to the place where this event 
occurred. As the professional historians would soon tell us, it is a 
phenomenon referred to as ``the power of place.'' They still come 
daily, sometimes by the hundreds, just to pay their respects and see 
firsthand how this story, which belongs to us all, began.
    The items they bring now fill two entire rooms at the Somerset 
Historical Center, the home of the Historical and Genealogical Society 
of Somerset County which has been appointed by the County to collect, 
catalog and archive the artifacts that are being left behind, which, 
individually and collectively, have become an important part of the 
historic record.
    Last December, in response to the groundswell of support for the 
creation of a permanent memorial, a Town Meeting was held in 
Shanksville in which those who participated identified key stakeholder 
groups that must be represented on the soon to be appointed Flight 93 
Memorial Task Force. In addition to every family member that wishes to 
participate, they told us the Task Force must include representatives 
of the community, emergency responders, educators, veterans, and 
historians.
    In January, the Somerset County Commissioners formally requested 
that Congressman John Murtha introduce legislation that would create a 
national memorial to the passengers and crewmembers of United Airlines 
Flight 93 under the auspices of the National Park Service, the nation's 
curator, to ensure its proper administration long after all, who now 
remember, are gone.
    At a meeting in February, surviving family members representing 37 
of the 40 individuals who perished on Flight 93 reached strong 
consensus that a permanent memorial should be constructed. The location 
they said had been selected on September 11th, when, after the fateful 
struggle in the skies of Pennsylvania, their loved ones reached their 
final resting place. As Jennifer Price, a young woman who lost both of 
her parents on that plane so eloquently told those who gathered at the 
National Press Club last in March when the legislation was publicly 
announced, ``It is the place where we will go to say hello and 
goodbye.''
    House Bill 3917, The Flight 93 National Memorial Act, will ensure 
that the crash site of Flight 93 is held in perpetuity with the dignity 
and honor it deserves. The legislation provides a unique framework that 
will meld the grassroots input of the Flight 93 Task Force with the 
necessary support and oversight provided by the Federal Flight 93 
Advisory Commission to make a national memorial a reality. And although 
the members of the Advisory Commission will be appointed by the 
Secretary of the Interior, the bill specifies that the appointments 
come from recommendations of the local Flight 93 Task Force, ensuring 
that the voices of the families, and the community this crash affected, 
remain central to the memorial process.
    The crash of Flight 93 is significant to our nation's history, and 
its importance in no way diminishes the sacrifice of those who died at 
the World Trade Center Towers and the Pentagon. But what happened over 
the skies of Western Pennsylvania was different. These forty 
individuals, our newest American patriots who count among their ranks 
nationals from Japan, Puerto Rico and Germany, fought to overtake the 
plane, and in so doing, gave their lives to save countless others. It 
is their courage that flamed the fires of freedom in the shadow of 
September 11th, and served to inspire a nation that needed to find its 
way out of the darkness.
    On behalf of the community that now cradles them as its own, the 
county in which they find their perpetual rest, the state to which 
their destiny was linked and the country for which they died to defend, 
I respectfully ask the members of this Subcommittee, and the Congress 
of the United States to honor these extraordinary individuals so that 
their sacrifice will be remembered for generations to come. Thank you.
                                 ______
                                 
    Mr. Radanovich. Mrs. Kemmerer, I know it is toughest for 
you because I know you lost your mom on that flight. But 
welcome to the Committee, and I thank you for being here and 
representing the family organization of Flight 93. And your 
testimony will be very valuable to the establishment of this 
site, so please accept my thanks for being here, and you may 
begin.

STATEMENT OF ELIZABETH KEMMERER, FLIGHT 93 FAMILY ORGANIZATION 
             REPRESENTATIVE, BUDD LAKE, NEW JERSEY

    Ms. Kemmerer. Yes. My mother Hilda Marcin was a passenger 
on Flight 93. Mr. Chairman, Committee members, thank you for 
the opportunity to appear here today. Shanksville, 
Pennsylvania, where Flight 93 crashed, is the final resting 
place for the passengers and crew. The crash site is now a 
cemetery and should be treated with the utmost respect and 
compassion. Ninety-two percent of our families' remains were 
unidentifiable and remain at the site. The site, without proper 
care--sorry for my voice--
    Mr. Radanovich. That is OK.
    Ms. Kemmerer. --and maintenance has the potential of 
becoming a circus atmosphere where trinkets and trash will be 
sold. The meaning of the site and the people who died there 
fighting is much deeper than that.
    The passengers and crew of Flight 93 have been referred to 
by the President of the United States as well as other 
prominent leaders as the first Americans to fight a battle on 
American soil since the Civil War. They were the first 
casualties on U.S. soil in the war against terrorism. I am 
sorry. As such, the site can be compared to battles such as 
Gettysburg and Antietam, both national parks.
    The town of Shanksville is, quote, small-town America and 
thus not equipped to take on the burden, both financial and 
logistical, of maintaining a site where Americans can go to 
remember the heroics of 40 passengers and crew. The crash site 
should be a place to say a prayer, meditate or reflect on just 
what happened on September 11, a day that will be remembered as 
one of America's darkest.
    The only way the site can be maintained properly for future 
generations is to have the National Park Service take over and 
maintain the site. The site is part of U.S. history for current 
and future generations. The story of the crew and passengers of 
Flight 93 will be written in the U.S. history textbooks. To 
rely on Shanksville or on Somerset County and its future 
population to do so in a respectful and dignified manner is 
placing an undue burden on today's children and future 
generations.
    If not the National Park Service, then who? Who can bear 
the responsibility--excuse me--of ensuring that the site is a 
place where Americans can go and feel that the Flight 93 
passengers were properly recognized--I am sorry--for their 
selfless, heroic act. Forty lives were lost saving numerous 
others.
    CBS News has reported on May 23, 2002, that the target of 
Flight 93 was the White House. What must be remembered and 
never forgotten is that beyond the mere plane crash, the people 
on that flight made sure that no others became victims of the 
terrorists. Our government should, in fact, be thankful to them 
for their heroism and make sure that this site is under U.S. 
Government care and funding.
    Mr. Radanovich. Take your time, Ms. Kemmerer.
    Ms. Kemmerer. I am sorry.
    Mr. Radanovich. No. No. No problem.
    Ms. Kemmerer. Remember, no one gave orders to the soldiers 
of Flight 93. They took it upon themselves to save others. They 
fought a battle at 35,000 feet in an aisle no wider than 3 
feet. A proper memorial to their memory is the very least that 
can be done to appropriately remember these brave and valiant 
people. The National Park Service should be the ones to do it. 
It is the right thing to do. I am sorry.
    Mr. Radanovich. Thank you so much.
    Ms. Kemmerer. I read much better than that, believe me. It 
is the subject matter that hurts.
    Mr. Radanovich. If it were up to me, it would be a 
historical site already. We have got a lot of procedures we 
have to go through, and you have helped contribute to that, so 
I want to thank you very much for--
    Ms. Kemmerer. In addition I have also brought photos of the 
temporary memorial which the people in Shanksville and many, 
many thousands of visitors have brought contributions to the 
site, and if anyone would like to see them, they are there.
    Mr. Radanovich. There being no objection, so ordered. Thank 
you very much.
    Ms. Kemmerer. You are welcome.
    [The prepared statement of Ms. Kemmerer follows:]

                    Statement of Elizabeth Kemmerer 
       (Daughter of Hilda Marcin, Deceased, Flight 93, 9/11/2001)

WHY THE NATIONAL PARK SERVICE?
    Shanksville, PA, where Flight 93 crashed, is the final resting 
place for the passengers and crew. The crash site is now a cemetery and 
should be treated with the upmost respect and compassion. 92% of our 
families remains are were unidentifiable and remain at the site. The 
site, without proper care and maintenance, has the potential of 
becoming a circus atmosphere where trinkets and trash will be sold. The 
meaning of the site and the people who died there fighting is much 
deeper than that.
    .The passengers and crew of United Flight 93 have been referred to 
by the President of the United States, as well as other prominent 
leaders, as the first Americans to fight a battle on American soil 
since the Civil War. They were the first casualties on U.S. soil in the 
war against terrorism. As such, the site can be compared to battle 
sites such as Gettysburg and Antietam, both National Parks.
    The town of Shanksville is ``small town America'' and thus not 
equipped to take on the burden, both financial and logistical, of 
maintaining a site where Americans can go to remember the heroics of 
the 40 passengers and crew. The crash site should be a place to say a 
prayer, meditate or reflect on just what happened on Sept. 11, 2001; a 
day that will be remembered as one of America's darkest.
    The only way the site can be maintained properly for future 
generations is to have the NPS take over and maintain the site. This 
site is part of U.S. History for current and future generations. The 
story of the crew and passengers of Flight 93 will be written in the 
U.S. History text books. To rely on Shanksville and or Somerset County 
and its future population to do so in a respectful and dignified manner 
is placing an undue burden on today's children and future generations.
    If not the NPS, then who? Who can bear the responsibility of 
insuring that the site is a place where Americans can go and feel that 
the Flight 93 passengers were properly recognized for their selfless 
heroic act? Forty lives were lost saving numerous others. CBS News has 
reported on May 23, 2002 that the target of Flight 93 was the White 
House. What must be remembered, and never forgotten, is that beyond a 
mere plane crash, the people on that flight made sure that no others 
became victims of the terrorists. Our government should be thankful to 
them for their heroism and make sure that this site is under U.S. 
Government care and funding.
    Remember, no one gave orders to the soldiers of Flight 93. They 
took it upon themselves to save others. They fought a battle at 35,000 
feet in an aisle no wider than three feet. A proper Memorial to their 
memory is the very least than can be done to appropriately remember 
these brave and valiant people. The NPS should be the ones to do it. It 
is the right thing to do.
                                 ______
                                 
    Mr. Radanovich. All right. Next up is Mr. Bruce Hagensen, 
who is a board member of the Vancouver National Historic 
Reserve Trust of Vancouver, Washington, on H.R. 2099, and, Mr. 
Hagensen, you have got 5 minutes.

 STATEMENT OF BRUCE HAGENSEN, BOARD MEMBER, VANCOUVER NATIONAL 
         HISTORIC RESERVE TRUST, VANCOUVER, WASHINGTON

    Mr. Hagensen. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today, and I want to thank Congressman 
Baird as well for his ongoing support of our efforts. Royce 
Pollard, our esteemed mayor, has used his oral and written 
testimony to provide you with the background for the Vancouver 
National Historic Reserve, which was designated by Congress 
through the National Preservation Act of 1996.
    The historic reserve has been recognized as the most 
historically significant site in the Pacific Northwest. It is 
truly an American treasure. But I think more importantly, what 
I want to share with you today is that the Vancouver National 
Historic Reserve is also a rare example of partnerships that 
work.
    For over a half a century, local, State and Federal 
Government agencies along with numerous private individuals and 
organizations have been collaborating to preserve and interpret 
the history of Vancouver and the region. However, in 1996, 
Vancouver National Historic Reserve designation established a 
true partnership among the landowners of the 366-acre historic 
reserve, and that partnership included the National Park 
Service, the city of Vancouver, the United States Army, and the 
Washington State Historic Preservation Office.
    The Vancouver National Historic Reserve Trust is a 
nonprofit organization established in 1998 as an outgrowth of 
an earlier citizens' project to help support the historic 
reserve and to bring private resources into the partnership. I 
would like to give you some examples of some of the successes 
that have been referenced earlier.
    First, we have the Fort Vancouver National Historic Site, 
which is operated by the Park Service, and recently it has 
completed a new fur store and an archaeological collections 
facility. It has completed a new carpenter shop all in the 
efforts to recreate the ambiance of this Hudson's Bay holding. 
We have also restored landscape following the removal of more 
than 30 airline hangars that were surrounding that area. They 
have done cultural resource management, and they have also done 
numerous interpretive education programs including tours, 
exhibits and reenactments.
    I would also like to reference Officers Row that was 
mentioned earlier by Congressman Baird and the mayor. Officers 
Row is a $10 million project. It was started in 1986 as the 
city strove to save 21 historic homes on Officers Row that had 
been let fall into disrepair by the General Services 
Administration. That project was successfully completed and is 
financially self-sustaining and is a nationally recognized 
example of a mixed use preservation project that has brought 
economic and public benefit to the community.
    We have Pearson Air Field and the M.J. Murdock Aviation 
Museum. This is a $4.3 million project that was done with local 
funds. We have also rehabilitated the munitions and 
headquarters building. We have the Vancouver National Historic 
Reserve Center, which is a $2.8 million project at the General 
O.O. Howard house. We have renovated this beautiful house, and 
it is used as a visitors' center and administrative office. It 
is also the location of a nationally recognized museum exhibit 
called One Place Across Time, which the mayor referenced 
earlier, which is symbolic of how we are trying to interpret 
this site.
    More importantly, I would like to share with you today some 
of the programs that have emanated out of these particular 
efforts. I think all of us appreciate the fact that we have 
responsibility to preserve our historic assets, but I think 
even more important is what do we do with those assets. How do 
we project those assets and make a learning experience for our 
young people?
    I would like to relate to you our Celebrate Freedom 
programs started in 1991. We have one of the most significant 
Fourth of July celebrations west of the Mississippi. We also 
have Flag Days and Veterans Days events. We have the George C. 
Marshall Lecture, which we bring renowned people to honor the 
past and the service of General Marshall. Past lectures have 
included Senator Daniel Inouye in 2002, Tom Brokaw in 2000, 
Madeleine Albright was with us in 1998, and Colin Powell was 
with us in 1991. We also have the George C. Marshall leadership 
awards for emerging young adults in public service, and we also 
have the George C. Marshall youth leadership award.
    We have completed projects along the Columbia River, trails 
and parks, historical markers and sculptures, and we also 
established about a $3 million project, which was the Water 
Resources Education Center. All this tells of a--that 5 went 
quickly. I apologize.
    Mr. Otter. [Presiding.] It does go very fast.
    Mr. Hagensen. Let me just summarize, Mr. Chairman. You have 
some of the written documentation of what I have spoken about. 
You also have a written documentation of the upcoming project, 
which is the west barracks.
    I would just like to point out that, as mentioned before, 
when the Army pulled back from this historical post that left 
322,000 square feet of buildings, we have to do something 
constructive with those buildings. We have a model of what can 
be done with Officers Row, and we look forward to maintaining 
that progress and that momentum with the help of this bill.
    I thank you for the opportunity to appear before you today 
and will be happy to help answer any questions regarding the 
historic preserve.
    Mr. Otter. Thank you, Mr. Hagensen.
    [The prepared statement of Mr. Hagensen follows:]

              Statement of Bruce Hagensen, Board Member, 
               Vancouver National Historic Reserve Trust

    Chairman Radanovich, and Members of the Subcommittee of National 
Parks, Recreation, and Public Lands:
    I am Bruce Hagensen, former Mayor of Vancouver and a member of the 
Vancouver National Historic Reserve Trust board of directors, here 
before you to testify on behalf of H.R. 2099, to amend the Omnibus 
Parks and Public Lands Management Act of 1996 to provide adequate 
funding authorization for the Vancouver National Historic Reserve.
    Royce Pollard, the esteemed Mayor of Vancouver Washington has used 
his oral and written testimony to provide you with the background of 
the Vancouver National Historic Reserve. Designated by Congress through 
the National Preservation Act of 1996, it has been recognized as the 
most historically significant site in the Pacific Northwest. It is 
truly an American treasure.
Partnerships that Work: A Record of Achievement
    For over half a century local, state and Federal Government 
agencies, along with numerous private individuals and organizations, 
have been collaborating to preserve and interpret the history of the 
Vancouver area and the region.
    The 1996 Vancouver National Historic Reserve (VNHR) designation 
established a partnership among the landowners in the 366-acre Historic 
Reserve the National Park Service, the city of Vancouver, the U.S. 
Army, and the Washington State Historic Preservation Office. The 
Vancouver National Historic Reserve Trust (VNHR Trust), a nonprofit 
organization, established in 1998 as an outgrowth of an earlier 
citizens project, helps support the Historic Reserve and brings private 
resources into the partnership.
    The VNHR, in the heart of the city of Vancouver, Washington 
includes the following components:
    <bullet> Fort Vancouver National Historic Site
    <bullet> Vancouver Barracks and Officers Row
    <bullet> Pearson Air Field
    <bullet> Portions of the Columbia River Waterfront
    <bullet> Kaiser Shipyards and Viewing Tower
    <bullet> The Water Resources Education Center
    This remarkable public/private partnership has benefited many of 
the entities within the Historic Reserve boundaries. During the past 15 
years in excess of $30 million has been invested in property 
improvements and projects within the present Vancouver National 
Historic Reserve boundaries, mostly from non-Federal sources. The 
Federal Government has provided approximately 25% of the capital funds. 
The remaining 75% has been provided by local and state government, 
foundations such as the locally based M.J. Murdock Charitable Trust, 
and numerous other individuals, businesses and not-for -profit 
organizations. Immeasurable in-kind dollars have been provided as well 
by a legion of dedicated volunteers.
    The following are a sample of remarkable Historic Reserve projects 
that have occurred:
Fort Vancouver National Historic Site
    <bullet> Fur Store Reconstructed/Archaeological Collections 
Facility, 1993
    <bullet> Carpenter Shop completed, 1998
    <bullet> Construction of 1845 Counting House/Commander Thomas 
Baillie residence, 1999 ongoing
    <bullet> Restored landscape following the removal of more than 
thirty hangers, 2000
    <bullet> Jail, archaeology excavations and reconstruction, 2001
    <bullet> Archaeology surveys, excavation, and research at Hudson s 
Bay Company cemetery, Company (Kanaka) Village, Parade Ground, Pearson 
Munitions and Headquarters buildings
    <bullet> Cultural resource management
    <bullet> Interpretive and Education programs, including tours, 
exhibits, and reenactments.
Officers Row
    In 1986, the city of Vancouver saved 21 historic homes on Officers 
Row and accomplished a signature project for Vancouver. The Row is 
financially self-sustaining and is a nationally-recognized example of a 
mixed use preservation project that has brought economic and public 
benefit to the community.
Pearson Field and M.J. Murdock Aviation Museum
    <bullet> Completion of M.J. Murdock Aviation Museum, largely with 
private funding, 1997
    <bullet> The last series of non-historic hangars are being removed 
from National Park Service property, Spring 2002
    <bullet> Full build out of new hangars away from Historic Reserve 
property, 2000
    <bullet> Rehabilitation of the Munitions and Headquarters 
Buildings, 2001
Vancouver National Historic Reserve Visitor Center at the Gen. O.O. 
        Howard House
    <bullet> Renovation and reuse of historic post commander s 
quarters as VNHR Visitor Center and administrative offices, 1998
    <bullet> A nationally recognized museum exhibit, One Place across 
Time: Vancouver National Historic Reserve, providing the visitor with a 
comprehensive overview of the Historic Reserve within national and 
international contexts, 1998
    <bullet> Educational publications and programs include books, 
documentary videos, exhibits and school curricula
Celebrate Freedom Programs
    <bullet> Fourth of July, Flag Day and Veterans Day Events
    <bullet> George C. Marshall Lectures: Past lecturers include 
Daniel Inouye (2002), Tom Brokaw (2000), Madeline Albright (1998), and 
Colin Powell (1991).
    <bullet> George C. Marshall Leadership Award for emerging young 
adults in public service
    <bullet> George C. Marshall Youth Leadership Award recognizing 
public service in a high school student
Columbia River Waterfront Projects Trails and Parks
    <bullet> Historical markers and sculptures
    <bullet> Water Resources Education Center
Vancouver Barracks Preservation and Reuse Project
    <bullet> Planning 1998 and continuing:
      * Vancouver Barracks Physical History Study, 1998. Report and 
resource guide prepared by the National Park Service describing 
selected buildings.
      * Vancouver Barracks Environmental Assessment, 1999. Report 
prepared by the U.S. Army analyzing current conditions at Vancouver 
Barracks.
      * Vancouver Barracks Adaptive Reuse & Economic Analysis, 2000. A 
cooperative effort of the Reserve Partners and the Reserve Trust 
analyzed alternative property use scenarios and the cost of 
rehabilitation and adaptation for new uses of 16 West Barracks 
buildings.
      * American Red Cross Convalescent House, constructed in 1919, 
has been designated as an Official Project of Save America s Treasures, 
with endorsement from the national president of American Red Cross.
An Outstanding Record of Achievement: A Vision for the Future
    The theme ``Preserving the Past, Shaping The Future'' guides the 
Vancouver National Historic Reserve partners' vision for the future. We 
continue to identify, preserve and adapt for the benefit of the public 
structures on the Historic Reserve. We provide opportunities for more 
than 500,000 annual regional, national, and international visitors to 
access the site and educational programs that tell the stories of this 
``One Place across Time.'' The Historic Reserve offers opportunities 
for learning experiences preparing citizens for productive lives and 
leadership roles in society.
Vancouver Barracks Project: The VNHR Partnership in Action
    At the present time the City of Vancouver is proposing to proceed 
with a project to preserve and reuse the west area of the Vancouver 
Barracks, home to the U.S. military for over 150 continuous years. The 
Vancouver Barracks was the first U.S. Army post in the Pacific 
Northwest and served as the headquarters for the vast Department of the 
Columbia. Vancouver Barracks was a center for U.S. military operations 
in the region for the last half of the 19th century and into the 20th 
century. National mobilization efforts took place here, supplying 
lumber and ships for two world wars.
    This project will be a major step toward achieving the goals for 
the Historic Reserve as established in the 1999 Cooperative Management 
Plan (CMP). Preserving and protecting these irreplaceable historic 
assets will bring new sustainable uses to this rare urban park, and at 
the same time, bring its past alive to current audiences. Historic 
places, buildings and furnished rooms bring history alive in a powerful 
way. The Interpretive Plan for the Historic Reserve specifies restoring 
and furnishing several rooms at Vancouver Barracks appropriate to the 
period of the Army's use.
    While specific uses for each of the seventeen buildings are in the 
process of being determined, it is intended that the property will be 
used for formal and informal educational programs for both residents of 
the area and visitors to the Historic Reserve. Educational planning 
work for Vancouver Barracks has involved the Partners, leaders from 
school districts, the local and national arts community, and nonprofit 
executives from regional cultural organizations. The Partners and 
Reserve Trust are currently facilitating dialog among organizations to 
develop collaborative and innovative educational programs. These 
discussions involve Washington State University, Clark College, 
Educational Services District 112, the National Park Service and the 
104th Infantry Training Division of the U.S. Army Reserve.
    However, the Vancouver Barracks site infrastructure is dangerously 
outdated and will need to be replaced as soon as possible. The 
buildings are deteriorating and need major work to comply with building 
safety codes that would be applicable to any new public use. The longer 
the barracks buildings remain unoccupied, the threat to the buildings 
by vandalism, potential water damage, fire, and further structural 
deterioration will increase, thereby increasing costs of restoration. 
Therefore, it is critically important that action be taken as quickly 
as possible.
    Based on the Vancouver Barracks Adaptive Re-use & Economic Analysis 
completed in early 2000, it has been determined that the rehabilitation 
of buildings, and site, plus the adaptations necessary for new uses, 
will cost approximately $40,000,000 provided the work can be done in a 
four year time span.
    The analysis clearly indicates that revenues, to be derived largely 
from space rental, would not be sufficient to finance this project with 
long-term debt. Consequently, it has been determined the full amount 
must be raised from public and private sources.
West Area Funding Proposal
    The continued Federal appropriation monies for the Vancouver 
National Historic Reserve will be committed to this important project. 
The VNHR Trust has determined that Federal funding, sufficient to 
permit site work and building rehabilitation to begin in late 2002, 
must be obtained now to trigger initiation of the project. A total 
Federal contribution of $20 million (Fiscal Year 2003 2005) is needed 
to match non-Federal funding for the West Barracks project. This action 
is deemed key to successful private fundraising efforts, securing 
tenants for the property, minimizing the impact of inflation, and 
avoiding additional serious property deterioration.
    The $20 million Federal commitment will be matched by non-Federal 
dollars, two to one.

Federal
    Rehab/Preservation -- $20 million -- 37%
Non-Federal
    City of Vancouver -- $6 million -- 11%
        Infrastructure/Site (2001 2004)
    State of Washington -- $6 million -- 11%
        Adaptation for Educational Uses (2002 2005)
    Private -- $8 million -- 15%*
        Rehab/Preservation/Adaptation
Total Capital Investment -- $40 million
Private -- 26%*
    Program Investment -- $6 million
    Endowment -- $8 million
Total Project -- $54 million -- 100%
*Total private support is 41%.

    Please note that, in addition to the capital investment, the 
Vancouver National Historic Trust proposes to raise an additional 
$8,000,000 from private sources as an endowment to provide long-term 
financial security for the project and $6,000,000 for investment in 
educational programs to be located at the Vancouver Barracks.
    The VNHR Trust is prepared to proceed with planning and 
preparations for private fundraising work while progress is being made 
to achieve the above requirements. However, private, city, and state 
money is contingent upon Federal support. The opportunity to transform 
Vancouver Barracks with a proportional mix of public and private 
investment cannot wait. Each year, the project becomes more expensive.
    On behalf of the members of the Vancouver National Historic Reserve 
Trust, I want to reiterate to members of Congress our ongoing 
commitment to match or exceed Federal monies.
    I refer you to a letter from the Reserve Trust's Chairman, Ed 
Lynch. Thank you for your consideration.
                                 ______
                                 
    [Attachments to Mr. Hagensen's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T0550.016
    
    [GRAPHIC] [TIFF OMITTED] T0550.017
    
    [GRAPHIC] [TIFF OMITTED] T0550.018
    
    [GRAPHIC] [TIFF OMITTED] T0550.019
    
    [GRAPHIC] [TIFF OMITTED] T0550.020
    
    [GRAPHIC] [TIFF OMITTED] T0550.021
    
    [GRAPHIC] [TIFF OMITTED] T0550.022
    
    [GRAPHIC] [TIFF OMITTED] T0550.023
    
    Mr. Otter. I would remind yourself as well as the rest of 
the panel that it is the normal course for the Committee to 
unanimously accept your entire written testimony.
    Mr. Hagensen. Thank you.
    Mr. Otter. So if you have--due to a desire for brevity have 
shortened that somewhat, your entire testimony will be as a 
matter of record.
    Mr. Hagensen. I appreciate that, sir.
    Mr. Otter. Now speaking on House Resolution No. 4874 will 
be Mr. Bruce Anderson from Kootenai County, Idaho.

 STATEMENT OF BRUCE ANDERSON, LAND SURVEYOR, KOOTENAI COUNTY, 
                      COEUR D'ALENE, IDAHO

    Mr. Bruce Anderson. Thank you, Mr. Chairman and members of 
the Subcommittee. This is a story that began 120 years ago. 
John B. David was a U.S. General Land Office surveyor under 
contract to survey a couple of townships in north Idaho 
preparatory to the sale and disposition of lands to the 
settlers under the Homestead Act. He was instructed to survey 
the section lines in a certain manner. Included in those 
instructions were instructions to survey any riparian 
boundaries, which would be lake boundaries, lake shores or 
rivers. We have the notes of Mr. David. We have the 
instructions of Mr.--what Mr. David was supposed to do. We have 
the notes of what Mr. David said he did, and now we have 
evidence of what Mr. David actually did on the ground.
    The two lakes we are talking about are Spirit Lake, which 
in the old General Land Office's notes and plats show as Lake 
Tesemini, which is now known as Spirit Lake, and the other lake 
is Lower Twin Lake, which used to be called Fish Lake. Mr. 
David shows, according to the survey, that he would be--if we 
used his survey, the boundaries of the eastern portion of 
Spirit Lake would be between a quarter and a half a mile 
distant from the present shoreline and some 350 feet in 
elevation above the present shoreline of Spirit Lake.
    On Lower Twin Lake it is more dramatic. He was between a 
quarter and a half a mile in distance from the present 
shoreline and over 1,000 feet in elevation above the present 
shoreline of Spirit Lake. Taking that into local perspective, 
that would be like saying that a surveyor of the Washington, 
D.C., area would say that the Tidal Basin is nearly two and a 
half times the height of the Washington Monument.
    The purpose of my testimony is to introduce the exhibits. 
There are eight of them. Exhibit 1 shows pictorially the 
differences between the John B. David survey and the present 
shoreline. Exhibit 2 is the Lower Twin Lake differences between 
John B. David survey, based on Exhibit 2 and 3, which is the 
depiction of the original survey of the maps that were the 
basis--based upon Mr. David's notes. Exhibits 5 and 6 show 
comparisons of the original acreages as reported by the Federal 
Government and modern measurements taken from the Assessor's 
Office records as best available information.
    In the Spirit Lake case, Mr. David shorted the settlers by 
as much as 40 to 50 percent, and in other cases he over--
understated the acreage by as much as 120 percent. On the Twin 
Lakes situation, again, he understated acreage by as much as 87 
to nearly wiping out the entire government lot. At the other 
extreme he underestimated the correct acreage from anywhere 
from 400 to 600 percent.
    Being the county does not have the resources nor the legal 
authority to rectify the predicament that the current owners 
are in, it is incumbent upon the Federal Government to make 
good on the early survey that gave the settlers clear title 
patents to their property.
    This House Resolution 4874 is very straightforward. It has 
two items. One is to accurately define the omitted lands, and 
two is claim any interest for the current landowners. In this 
manner people can live in peaceful harmony knowing that they 
have at least somewhat of a clear title to their ownership. 
Thank you.
    Mr. Otter. Thank you very much, Mr. Anderson.
    [The prepared statement of Mr. Bruce Anderson follows:]

     Statement of Bruce Anderson, L.S., Kootenai County Surveyor, 
                         Kootenai County, Idaho

Purpose
    The purpose of this report is twofold: (a) to explain the history 
and technical aspects of the original survey, which created a 
significant area of omitted lands; and (b) to ask for your support in 
providing relief to the affected landowners abutting these two lakes. 
This bill is comprised of two proposed actions. Firstly, the omitted 
lands must be identified by an accurate survey. Secondly, action must 
be taken to relinquish any Federal interest in the omitted lands, 
according to said survey.

History
A. Spirit Lake
    In September 1880, General Land Office contract surveyor, John B. 
David conducted a survey of the township containing the eastern portion 
of Spirit Lake.. His survey affects the east half of Spirit Lake. (See 
Exhibit 1). Exhibit 1 depicts the shoreline as surveyed by Mr. David, 
taken from his notes and the plat of the township. (See Exhibit 3). 
Referring to Exhibit 1, the erroneous survey places the shoreline of 
Spirit Lake between one-quarter and one-half of a mile distant from its 
present location. Also, his survey places the shoreline in excess of 
three-hundred feet in elevation above its present elevation in some 
locations. It is not possible that Spirit Lake ever existed at those 
locations within recent geologic history. His erroneous survey is 
contrasted with the Robinson and Dike survey of the western half of 
Spirit Lake in 1893. The Robinson and Dike survey conforms very well 
with the present shoreline of Spirit Lake, and is not an issue in this 
case.

B. Twin Lakes
    A similar situation exists along the shore of Lower Twin Lake. John 
B. David also surveyed the township containing the easterly one-half of 
Twin Lakes, referred to now as Lower Twin Lake also in 1880. (See 
Exhibit 2). Mr. David's survey places the shoreline of Lower Twin Lake 
between one-quarter and one-half of a mile distant from its present 
location. In addition, his survey places the shoreline nearly one-
thousand feet in elevation above its present elevation in some 
locations. This Exhibit is a compilation of the notes and plat by Mr. 
David. (See Exhibit 4). As with his survey of Spirit Lake, it is not 
possible that Lower Twin Lake ever existed per the location as surveyed 
by Mr. David. The westerly portion of Twin Lakes, known as Upper Twin 
Lake, was meandered by Robinson and Dike in 1893. Their survey conforms 
well with the present position of the existing shoreline, and is not an 
issue in this case.

Applicable Sections of the Manual of Surveying Instructions, 1973 
        relating to omitted land.

Erroneously Omitted Areas
    7-77. Lands exposed by changes in water level or accreted 
subsequent to survey are not erroneously omitted lands. This title is 
applied to lands, not shown on the plat of the original survey, which 
were excluded from the survey by some gross discrepancy in the location 
of a meander line. The unsurveyed land typically lies between the 
actual bank of a lake, stream, or tidewater and the record meander 
line.
    7-78. In some older surveys temporarily flooded lands, or swamp and 
overflowed lands, were meandered as if they were permanent bodies of 
water. In a few cases, meander lines were reported where no body of 
water ever existed in fact. In still other instances, several lakes 
have been surveyed as one lake. All are treated in the same manner as 
those where the discrepancy is a grossly erroneous position of the 
record meander line. The converse is sometimes found where the record 
meander line leaves the bank and extends into the body of water. A 
water area may thus be shown as land.
    7-79. Marginal discrepancies between the meander lines and the 
water at the time of survey fall into two classes, those that are 
merely technical differences and those that constitute erroneous 
omission. The guide lines for determining the class of a particular 
case are laid down in court and departmental decisions.
    7-80. If land is to be regarded as erroneously omitted from survey, 
it must first be shown affirmatively that the area was land in place at 
the date of the original subdivision of the township. Then, if the land 
is similar to the surveyed lands, the usual inference that the official 
survey was correct may be set aside, and the conclusion may be 
substituted that the land should have been covered by that survey. 
However, a convincing showing is needed that the representations of the 
original plat and field notes are grossly in error.
    7-81. Applications for the extension of the subdivisional lines to 
include the areas erroneously omitted from the original survey may be 
initiated either by settlers on the omitted land or by the owners of 
the adjoining land. The owner of the surveyed land, or a claimant who 
has purchased from him, may apply for the survey as a preliminary to 
quieting the title. There may or may not be adverse claims. The 
immediate question is the merit of the application under the acts of 
Congress which grant relief in these cases. A field examination is 
nearly always required to verify the conditions alleged in the 
applications. It is objectionable in principle to amend a plat unless 
large and unwarranted discrepancies can be shown.
    7-82. The survey of erroneously omitted lands may also be 
undertaken as an administrative responsibility for identifying public 
lands. Such cases may be brought to the attention of the Bureau by a 
Federal agency having administrative authority over the general area.
    7-83. No proof is required to show the whys and wherefores of an 
erroneous meander line, but only that the line as run and as 
represented on the plat and in the field notes is in effect grossly in 
error. The rule is concisely stated in John McClennen, 29 L.D. 514 
(1900): It is not necessary to search for the source of the error. The 
result is the same whether such error arose from mistake, inadvertence, 
incompetency or fraud on the part of the men who made the former 
survey.
    7-84. Where lands have been determined to be erroneously omitted 
from the original survey, the original meander line is made a fixed and 
limiting boundary segregating the previously surveyed areas from the 
unsurveyed public lands. The line is reestablished and marked with 
permanent monuments at the old angle points. Retracement between 
successive meander corners nearly always will show differences from the 
record in latitude and departure. The positions of the angle points are 
adjusted by the broken boundary method described in section 5-43 under 
``Angle Points of Nonriparian Meander Lines.'' The angle points are 
given serial numbers which do not duplicate numbers that may have been 
previously assigned in that section. The monuments are marked as shown 
in section 4-45.
    From the above citations, it is evident that these two surveys 
involve omitted lands. The standard used in the determination of 
omitted lands is the ``fifty percent rule.'' When the area is more than 
fifty percent larger than that reported by the original survey, omitted 
land exists. Exhibits 5 and 6 are comparisons between the area reported 
by John B. David survey, and best available data obtained from 
Assessor's Office records and maps, U.S.G.S. topographic maps, and 
ortho-photographic maps.
    The differences are significant, without rhyme or reason. For 
example, Exhibit 5, the differences on Spirit Lake range from forty-
five percent smaller than reported, to over one-hundred twenty percent 
in excess of that reported. Exhibit 6, the differences on Lower Twin 
Lake are even more dramatic. They range from a shortage of over eighty 
percent to an excess of six-hundred percent.

Implications and Problems
    The situation of fraudulent surveys cannot be dealt with by the 
individual land owner abutting these two lakes. They, through their 
predecessors, purchased, in good faith, based upon their belief of an 
accurate survey from the General Land Office. All land lying within the 
area of omitted land on both lakes are claimed by private interests. 
Each claimant within the omitted area has a cloud on their title, that 
is now public knowledge. A cloud of title may preclude a claimant from 
obtaining financing, or refinancing, and may even prevent the sale of 
property without a clear disclaimer of interest in the property by the 
Federal Government. Without such action, a claimant or prospective 
purchasers does not know that a possibility exists, that the Federal 
Government may at any such time lay claim to a portion or all of the 
omitted land. It is beyond the scope of power available to Kootenai 
County to resolve the survey and legal issues, even if it had the 
monetary resources.
    On Spirit Lake, there are over one-hundred seventy (170) parcels of 
land affected, lying within or partly within the area of omitted land. 
(See Exhibit 7). These parcels contain nearly four-hundred acres (400), 
with an assessed value in excess of nineteen million dollars 
($19,000,000), per Kootenai County Assessor's office figures. The 
parcels range in size, from one-hundred forty-six (146)parcels 
containing less than one acre, to one parcel containing more than one-
hundred sixty acres (160). There are thirty-six (36)parcels ranging is 
size, from one to six acres, with three parcels in the ten to thirty-
five (35) acre range.
    On Lower Twin Lake, there are over four-hundred eighty (480) 
parcels of land affected, lying within the area of omitted land, 
claimed by individuals, families, partnerships or corporations. (See 
Exhibit 8). These parcels comprise approximately eight-hundred acres 
(800), with an assessed value in excess of forty million dollars 
($40,000,000). The average value per parcel is approximately eighty-six 
thousand dollars ($86,000). The parcel size ranges from four-hundred 
fifty (450)parcels containing less than one acre, to one parcel 
containing three-hundred forty (340) acres. There are another thirty 
(30) parcels ranging from one to fifty (50) acres.
    The acreage and assessed values contain many variances, due to site 
specific data. Some parcels fall partly or entirely within the omitted 
lands, with the area calculated on the entire parcel. Appraised value 
varies, depending upon whether it is lake front or upland property, and 
whether the parcel is bare land or has improvements.
    Kootenai County, as a governmental unit, gains little benefit from 
this legislation. The County claims title to eighteen parcels of land 
through dedicated rights-of-way, providing public access to both lakes. 
Of these public access sites, one is developed and lies in the omitted 
land category. Three other sites lie in the omitted land category, but 
are not developed.
    Kootenai County is the collective voice for our constituents, and 
we believe it to be in the best interest of our constituents to have 
peaceful occupation of their lands, by having the title quieted to 
them. We ask Congress to support this resolution, and to pass it as 
written.
                                 ______
                                 
    [Attachments to Mr. Anderson's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T0550.001
    
    [GRAPHIC] [TIFF OMITTED] T0550.002
    
    [GRAPHIC] [TIFF OMITTED] T0550.003
    
    [GRAPHIC] [TIFF OMITTED] T0550.004
    
    [GRAPHIC] [TIFF OMITTED] T0550.005
    
    [GRAPHIC] [TIFF OMITTED] T0550.006
    
    [GRAPHIC] [TIFF OMITTED] T0550.007
    
    [GRAPHIC] [TIFF OMITTED] T0550.008
    
                                ------                                

    Mr. Otter. We will now go to the panel--or we will now go 
to the folks seated at the dais. Mr. Kildee, do you have any 
questions of any of the panelists?
    Mr. Kildee. Thank you, Mr. Chairman.
    First of all, I want to thank all the witnesses for their 
testimony. When I drive back to Michigan, I drive near the very 
sacred site in Pennsylvania, and I get a feeling there like I 
get at no other place. And I say a prayer of gratitude. And I 
am going to thank you for your testimony today. I certainly 
support the bill and will do everything I can to see that it is 
enacted. But it is a sacred site, and we should hold it in a 
special way in our history and in our heart.
    Mayor Pollard, my cousin Russell Kildee was mayor of 
Washugal, Washington, just east of you, before you were born, I 
am sure, so there is a connection out there. And Lewis and 
Clark made Washugal historically important also. So I certainly 
will support that bill and also the bill for Idaho. So I again 
thank all of you for your testimony, and thank you very much.
    Mr. Otter. Well, thank you very much, Mr. Kildee. I 
appreciate it.
    Mr. Anderson, not that your bill is any more important than 
any others, but because it is the bill that I introduced, I 
would like to ask you first. Folks that are now the residents 
of those 400 lots who built their homes and built their lives 
on those lots have been paying taxes all along under the 
assumption that this was their property, right?
    Mr. Bruce Anderson. That is correct, Congressman.
    Mr. Otter. And you heard Mr. Robert Anderson's testimony 
representing the Administration and the Department of Interior 
relative to previous errors and what it has cost to correct 
them. Are you familiar with any other sites in Idaho or in the 
West that have had to be corrected this same way?
    Mr. Bruce Anderson. Not any of the other ones mentioned by 
Mr. Anderson.
    Mr. Otter. I see.
    I would just mention to you, as a part of the lure of 
Idaho, that the second lieutenant who was sent out to the 
Salmon River Breaks by then General Grant, President Grant, in 
order to survey the new Idaho Territory, as you might recall, 
the story goes is that he and some of his troops got a little 
inebriated the night before, and when they left, they hit--they 
got onto the wrong mountain range, and as a result they got on 
the Continental Divide instead of where they were supposed to 
be, and Idaho has lost a sizable portion of ground to Montana. 
In fact--which would increase the size of the State by a third. 
And I had meant to ask Mr. Anderson in the Department if they 
would seek to correct that error as well. But I would probably 
find a little opposition from my colleague Mr. Rehberg if he 
were here, and he is not.
    Anyway, I just--it is not unusual, as you have stated, and 
as Mr. Anderson before him has stated, for us to have to go 
back and correct some of these problems.
    Let me ask Ms. Tokar-Ickes--did I say that right?
    Ms. Tokar-Ickes. Tokar-Ickes. That is fine. Thank you.
    Mr. Otter. What has been the involvement--in a brief part 
of your statement you talked about the--some of the community 
involvement. But what has been the involvement of the local 
communities in this effort?
    Ms. Tokar-Ickes. I think the local communities have really 
felt a very great stewardship toward maintaining the integrity 
and the dignity of this site. In fact, many of the community 
residents of Shanksville and Stonycreek Township are actually 
serving as Ambassadors at the temporary crash site on a 
voluntary basis 7 days a week during this peak of visitation 
season really, the height of the tourism season. We are seeing 
thousands of people visiting the temporary crash site, and they 
are serving as citizen Ambassadors to tell those who visit the 
story of what happened and provide some perspective and 
interpretation at the site currently.
    Mr. Otter. And forgive me for not knowing this, because I 
should, but is the site of the crash site, is that private 
ground?
    Ms. Tokar-Ickes. It is currently private property, yes.
    Mr. Otter. And how does the private property owners feel 
about this.
    Ms. Tokar-Ickes. We have talked to all of the landowners 
there.
    Mr. Otter. How many landowners are there?
    Ms. Tokar-Ickes. There are seven. There are seven obviously 
involved in the crash site boundaries. We are going to be 
working with the landowners. They will have a voice on the task 
force that is to be appointed.
    I think to the landowner, they are very supportive of 
moving forward to memorialize this site. They know that life is 
never going to be the way it was prior to September 11, and 
they have been very cooperative with those who are visiting the 
site. We really are--they are hosting really the world at this 
point because it is their private property.
    So I would say unequivocally that we do have support from 
all of the landowners.
    Mr. Otter. Is there any prohibition of any activity that 
that private property owner has on that land right now?
    Ms. Tokar-Ickes. The County of Somerset has been in charge 
of security. It is currently still a coroner's site, and our 
county corner is holding the site, because without that 
jurisdiction, the security would not be able to be there on a 
round-the-clock basis. The private property owners do have 
access to their particular parcels; however, the access is 
restricted. They are not to be bringing anybody else onto the 
property.
    Mr. Otter. I see. Thank you very much.
    Ms. Kemmerer, how do you feel about the role as it has been 
described in 3917, H.R. 3917, of the family--of the family 
folks, organization.
    Ms. Kemmerer. The family organization was just formed over 
the last couple of months. There are three board of directors, 
and what we--our role is to support the task force in coming up 
with an appropriate memorial. Hopefully all the wishes of the 
family members would be combined into a memorial that everybody 
would respect and honor.
    Mr. Otter. I see. Do you see--I know that Ms. Tokar-Ickes 
described the napkins and the more sophisticated drawings and 
renderings and ideas. Do you see this as a memorial to freedom, 
as a memorial--obviously, you know, as has been stated so many 
times, the first time that we went to war since the Civil War 
on our own ground, as well as--I mean, certainly in honor of 
those on Flight 93, but as a war of freedom and civil 
contribution, civilian contribution to our national security?
    Ms. Kemmerer. It definitely speaks very highly of the 
people and their belief that it is a free United States and 
that the terrorists were not going to get their own way. They 
completely took over the plane, kept the plane away from 
hurting any other individuals on the ground, and took it upon 
themselves to act as the caretakers of the United States and 
not letting any other terrorist act occur on that day.
    Mr. Otter. Well, I would certainly join with my colleague 
Mr. Kildee in recognizing that these were the first of the 
citizen patriots; that if we could get 282 million Americans to 
recognize their responsibility to themselves, their families 
and their national security as those folks on Flight 93 
recognized that, this war against terrorism would be over.
    Do you have any further questions, Mr. Kildee?
    Mr. Kildee. No, thank you.
    Mr. Otter. There are no further questions. This panel may 
be excused. There being no further business before the 
Committee, the Committee is adjourned.
    [Whereupon, at 3:25 p.m., the Subcommittee was adjourned.]


</pre></body></html>
